<html>
<title> - DOES THE U.S. OLYMPIC COMMITTEE'S ORGANIZATIONAL STRUCTURE IMPEDE ITS MISSION?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 DOES THE U.S. OLYMPIC COMMITTEE'S ORGANIZATIONAL STRUCTURE IMPEDE ITS 
                                MISSION?

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2003

                               __________

                            Serial No. 108-5

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


86-055              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                               __________
                                                                        

                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                      Ranking Member
FRED UPTON, Michigan                 HENRY A. WAXMAN, California
CLIFF STEARNS, Florida               EDWARD J. MARKEY, Massachusetts
PAUL E. GILLMOR, Ohio                RALPH M. HALL, Texas
JAMES C. GREENWOOD, Pennsylvania     RICK BOUCHER, Virginia
CHRISTOPHER COX, California          EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
RICHARD BURR, North Carolina         SHERROD BROWN, Ohio
  Vice Chairman                      BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
CHARLIE NORWOOD, Georgia             BOBBY L. RUSH, Illinois
BARBARA CUBIN, Wyoming               ANNA G. ESHOO, California
JOHN SHIMKUS, Illinois               BART STUPAK, Michigan
HEATHER WILSON, New Mexico           ELIOT L. ENGEL, New York
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES W. ``CHIP'' PICKERING,       GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JAN SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
ERNIE FLETCHER, Kentucky
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho

                  David V. Marventano, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JAN SCHALKOWSKY, Illinois
BARBARA CUBIN, Wyoming                 Ranking Member
JOHN SHIMKUS, Illinois               HILDA L. SOLIS, California
JOHN B. SHADEGG, Arizona             EDWARD J. MARKEY, Massachusetts
  Vice Chairman                      EDOLPHUS TOWNS, New York
GEORGE RADANOVICH, California        SHERROD BROWN, Ohio
CHARLES F. BASS, New Hampshire       JIM DAVIS, Florida
JOSEPH R. PITTS, Pennsylvania        PETER DEUTSCH, Florida
MARY BONO, California                BART STUPAK, Michigan
LEE TERRY, Nebraska                  GENE GREEN, Texas
ERNIE FLETCHER, Kentucky             KAREN McCARTHY, Missouri
MIKE FERGUSON, New Jersey            TED STRICKLAND, Ohio
DARRELL E. ISSA, California          DIANA DeGETTE, Colorado
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
W.J. ``BILLY'' TAUZIN, Louisiana       (Ex Officio)
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Campbell, Hon. Ben Nighthorse, a U.S. Senator from the State 
      of Colorado................................................     8
    Gardner, Rulon, 2000 Greco-Roman Wrestling Champion, United 
      States Olympic Committee, National Headquarters............    47
    Godino, Rachel, Chair, Athletes' Advisory Council, United 
      States Olympic Committee, National Headquarters............    28
    Marbut, Robert, Chairman, National Governing Bodies' Council, 
      United States Olympic Committee, National Headquarters.....    39
    Martin, William C., Acting President, United States Olympic 
      Committee, National Headquarters...........................    22
    McCarthy, James P., Jr., Member, Board of Directors, United 
      States Olympic Committee, National Headquarters............    43
    Ryun, Hon. Jim, a Representative in Congress from the State 
      of Kansas..................................................    14
    Schiller, Harvey W., President and Chief Executive Officer, 
      Assante US.................................................    34

                                 (iii)

  

 
 DOES THE U.S. OLYMPIC COMMITTEE'S ORGANIZATIONAL STRUCTURE IMPEDE ITS 
                                MISSION?

                              ----------                              


                       WEDNESDAY, MARCH 19, 2003

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2322, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Upton, Cubin, 
Shadegg, Bass, Terry, Stupak, and Green.
    Staff present: David Cavicke, majority counsel; Ramsen 
Betfarhad, majority counsel; Brian McCullough, majority 
professional staff; Will Carty, legislative clerk; and Chris 
Knauer, minority investigator.
    Mr. Stearns. Good morning, the subcommittee will come to 
order. Without objection, the subcommittee will proceed 
pursuant to Committee Rule 4E. So ordered, the chair recognizes 
himself for an opening statement.
    At this time of heightened international tension and the 
possibility of war looming, devoting congressional attention to 
sports might not seem a high priority at first glance.
    But in the context of the Olympics we recognize the value 
of the unifying qualities of international athletic 
competitions that highlight our similarities and ignore our 
differences.
    And there is no competition more important or richer in 
tradition than the Olympics. Their ability to inspire national 
pride and provide a sense of identity, in addition to 
fulfilling the dreams of athletes to compete at the highest 
level, serve a purpose higher than being just another sporting 
competition.
    Over the past few months, internal problems within the USOC 
have surfaced, ultimately resulting in the resignation of 
several of its top officials.
    While I do not wish to downplay the significance of these 
events, it is apparent that they have been the catalyst in 
focusing attention on a broader range of issues relating to the 
USOC and the Olympics movement.
    It has been 25 years since the Amateur Sports Act 
recognized the USOC and provided it with its mission. If 
nothing else, the recent events have provided everyone involved 
with the Olympics with an opportunity to put everything on the 
table for examination, with the intention of improving the 
organization and preserving the Olympic ideal.
    The U.S. Olympic movement is, without question, better off 
today than it was prior to 1978. Yet the degree of negative 
attention that has been attached to the USOC regarding these 
events, recent events, has reached a fevered pitch, often 
characterizing the USOC as ineffective, dysfunctional and 
having lost its direction.
    Given some of the hyperbole, I was expecting an eminent 
collapse, similar to the corporate failures this committee 
investigated this year.
    To be sure, the USOC does appear to have some problems, 
and, like any organization, has room for improvement. Whether 
the internal problems are attributable to one-time personnel 
conflicts or rather problems inherent in the structure that 
will inevitably surface again is a question that is critical to 
the continued success of our Olympic movement.
    The USOC has responded to the criticism by appointing a 
ten-person internal task force to examine governance and ethics 
issues. Additionally, an independent five-person commission has 
been appointed to review the USOC and provide recommendations 
to Congress.
    These are welcome developments and I look forward to 
reviewing their conclusions. My one concern is that 
recommendations have been made in the past and have never been 
implemented.
    Despite the recent blemishes, the USOC has been and 
continues to provide funding and services for athletes at 
levels unimaginable 25 years ago.
    The legislation enacted in 1978 was a necessary tool to 
implement the changes and has been extremely successful in 
fulfilling its intent, by many accounts.
    However, that was then and this is now. Much has changed in 
the past 25 years, during the USOC's evolution. Athletes are 
better. International competition is stronger.
    The demands of the USOC to meet these challenges are 
greater.
    The name of the act alone appears to be a misnomer, as many 
Olympians today are not amateurs, but rather professionals. 
From the NBA basketball players to the NHL hockey players, it 
is a far cry from the 1980 Miracle on Ice, the U.S. hockey team 
that brought home the gold in Lake Placid.
    The one constant that has not changed is the value 
Americans place on the Olympics and the trust we place in the 
USOC as caretaker of what many consider a national treasure.
    It would be tragic if the recent problems of the USOC 
undermine the success that so many individuals have dedicated 
their lives to create.
    USOC is a unique organization with a mandate unlike any 
other, comprised of both paid professionals assigned to operate 
the organization, and heavily dependent on volunteers from a 
broad constituency.
    Observations have been made that it has resulted in a 
structure that can work to the detriment of fulfilling its 
mission. I was surprised to discover how broadly USOC 
membership is.
    From the community-based organization at the local level, 
all the way to the elite athletes that represent the U.S. in 
the Olympics, Para-Olympics and the Pan American Games, it is 
no wonder that a board of directors of 122 members, 
representing such diverse constituents, would inevitably 
present managerial difficulty.
    Whether or not this needs to be changed is clearly open for 
discussion. Any changes will obviously affect member 
organizations differently and need to be considered carefully.
    While it is appropriate to examine ways to improve the 
structure and efficiency of the USOC, it is equally, if not 
more important, to examine its mission itself.
    The USOC has been many things to many groups. The tradeoffs 
of a broad mission versus a narrowly focused purpose are clear.
    The USOC can be a jack-of-all trades and do it with 
reasonable success. If, however, we want it to be the best 
Olympic organization for the athletes, then we may have to 
lighten its load of responsibilities.
    Any restructuring effort would be premature before we 
consider what the Olympic movement should be and hear from all 
the relevant parties.
    With that question in mind, I look forward to the beginning 
of our productive dialog this morning. Today we have expert 
witnesses representing the USOC, the national governing bodies; 
the Athletics Advisory Council, the independent commission 
reviewing the USOC; current athletes; and of course, our 
distinguished colleagues from the house and senate.
    With that, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. And thanks for holding 
this hearing as we examine the structure and recent problems 
with the USOC.
    And I want to thank our witnesses for being here and I am 
sure they will provide testimony for us today. I, for one, I 
have Northern Michigan University in my district.
    It is the only Olympic Education Center in the country. I 
have personally seen how hard these athletes work, train, and 
dream toward their Olympic goals.
    But for this dream they sacrifice much and I, once again, 
want to bring up, as I did 2 years ago, I feel the USOC does 
not help our Olympic Education Centers.
    They will give athletes from other countries scholarships 
and education in this country, but our own people, they do not 
help at all.
    So I am not real happy with the USOC and the way they treat 
our Olympic athletes. But without a doubt, and going off your 
statement, Mr. Chairman, the USOC does need our help.
    As I said, 2 years ago, the Oversight and Investigations 
Subcommittee conducted a lengthy investigation into the 
International Olympic Committee and various aspects of the USOC 
following the tawdry bidding process affiliated with both the 
Salt Lake City and the Atlanta Games.
    What the subcommittee found in that investigation was 
appalling. Bribes were rampant, IOC Representatives were 
showered with gifts and services of all kinds to lure the games 
to the cities of Atlanta and Salt Lake City.
    All-expense paid trips were tossed to IOC members like 
candy. Moving fees, condos, airline tickets, college tuition, 
cash, and even medical services were among the long list of 
gifts lavished on corrupt IOC members to secure bids.
    Clear and overwhelming evidence was uncovered illustrating 
that the IOC, its representatives, and many involved in the 
bidding process were operating completely out of the 
organization's control.
    In short, Mr. Chairman, the system was out of control. 
Rather than behaving as a shining beacon of hope and good will, 
the example set by the IOC became close to extinguishing the 
Olympic flame for good.
    I bring up the IOC in this early investigation because it 
was the USOC that was responsible for aggressively overseeing 
and preventing these unseemly activities, at least insofar as 
the bid city behavior was concerned. While true that neither 
Atlanta nor the Salt Lake City bid committees invented this 
behavior, nobody at the USOC was apparently minding the store.
    To view breakdowns that occurred with both the Atlanta and 
Salt Lake bids was to observe not only a failed IOC structure, 
but also a failed USOC structure.
    Through these scandals it was clear, early on, that major 
problems plagued the USOC and its construction. It was also 
clear that major changes would be required to prevent the kind 
of problems we now find ourselves addressing today.
    That the USOC continues to grab dubious headlines, even 
after the earlier scandals of both Salt Lake and Atlanta, is a 
sad testament to the organization's continuing flaws.
    And while the USOC's intended mission is clearly to serve 
the athlete, it nonetheless appears too often to serve its own 
interests while leaving its original mission obscured by 
politics, in-fighting and a bloated bureaucracy.
    To be fair, I would say that some of the blame rests 
clearly on Congress. It is the Congress that essentially 
created the USOC and has oversight responsibility over its 
structure and its activities.
    Nonetheless, congressional involvement with the USOC has 
been absent and only tends to surface once a major problem 
arises.
    While I generally support a hands-off policy or approach, 
where practical, I believe that Congress must play a greater 
role in overseeing the direction of the USOC, particularly 
through this challenging period of restructuring. The plight of 
our U.S. athletes, the only real mission of the USOC, is too 
important to allow this organization to continue in stumbling 
along.
    So how did we get to where we are here today, yet again, 
examining a failed Olympic-related organization? It was clear 
after the emergence of the Salt Lake City and Atlanta scandals, 
that not only would a full restructuring of the IOC be 
necessary, but so too would a restructuring be needed at the 
USOC.
    During these earlier scandals, plenty of commissions, task 
forces, and blue ribbon panels were formed. Vast details were 
given regarding how the Olympics' governing bodies failed to do 
their duties and how scandals arose.
    A clear accounting of who shot who was examined by Congress 
and by the media. What didn't occur, however, was consistent 
follow-up with particular emphasis on the USOC.
    As the IOC and the USOC made promises to re-tool their 
respective governing structures and various commitments were 
made to build compliance programs into their organizations, 
scant review occurred to determine if these systems were 
adequate or even functioned.
    One only need review the first Mitchell report commission 
after the Salt Lake City scandal to recognize that clear, 
structural problems existed at the USOC, and that these would 
require major surgery to prevent future problems.
    As the USOC slipped from the radar, however, many deeper 
issues went unaddressed and unnoticed by Congress. That is why 
we find ourselves, yet again, in this room attempting to fix 
the USOC.
    It will now be the attempt of this committee to work with 
our Senate friends to begin the process of fully looking into 
these matters.
    Mr. Chairman, let me conclude by raising a note of caution. 
While it is important to focus on the structure of the USOC, 
the subject of today's hearings, we must not forget that the 
USOC is part of a larger governing body, the IOC.
    The IOC cannot and should not be ignored from this inquiry. 
If continued examination and accountability are not directed at 
the IOC, like we are now doing with the USOC, I fear another 
scandal will emerge with the IOC, but will yet again result in 
muddying the USOC.
    In short, in an attempt to re-tool the USOC must also 
involve an examination of not only how the IOC has been 
restructured, but also how it interacts with the USOC.
    Mr. Chairman, I welcome today's inquiry and the many 
witnesses that will testify today. I look forward to working 
with you and the many witnesses to begin addressing the 
problems facing the USOC.
    I would ask that if we start this project that we stay with 
it. I would also suggest that as we begin to address the 
problems associated with the USOC, we again reacquaint 
ourselves with some of the issues still facing the IOC.
    The IOC now and in the future will affect how the USOC 
ultimately functions. With that, Mr. Chairman, I am over my 
time, but thank you.
    I was working off two different statements here for the 
benefit of----
    Mr. Stearns. Good job. I thank you colleague. Gentleman 
from Michigan, Mr. Upton.
    Mr. Upton. Thank you, Mr. Stearns. First of all, I welcome 
the two members that are here and certainly the panel to 
follow.
    It was under my chairmanship of the oversight 
investigations subcommittee two congresses ago that we in fact 
did expose a number of real problems with the Olympic bidding, 
both in Atlanta, Salt Lake and at the IOC.
    And I have to say our purpose of the Oversight and 
Investigations Subcommittee was to in fact look where there 
were problems, and we found them.
    And we thought at the time that when the blue ribbon 
commission was established, led by Senator Mitchell, Senator 
Baker, Howard Baker, Ken Duberstein and Henry Kissinger, that 
in fact with an ethics committee it would be solved.
    But we found that there was little follow-through. I wand 
to call it a sham, but in essence they were not given the power 
that they needed to see corrective changes made, and all of us 
were disappointed, to say the least.
    It is important that this committee and this subcommittee 
take the hearing today and look at constructive changes so that 
we can, in fact, look at legislation.
    To work with the Senate, with Republicans and Democrats, to 
restore the luster of what every American wants the Olympics to 
be.
    Whether it be in this country or overseas, as well. I look 
forward to this hearing. I look forward to working with 
Chairman Stearns to make sure that, in fact, we pursue 
legislation, but we never get into that situation again.
    I look forward to hearing the testimony and I yield back 
the balance of my time.
    Mr. Stearns. I thank my colleague. The gentleman from 
Colorado, Mr. Shadegg. The gentleman from Colorado, Arizona, 
Arizona.
    Mr. Shadegg. Thank you, Mr. Chairman. I want to thank you 
for holding this important and timely hearing and I also want 
to thank our witnesses for being with us and I look forward to 
their testimony.
    There is no doubt that the Olympics have inspired millions 
of Americans and left indelible impressions of inspiration, 
achievement and sportsmanship on both young and old.
    Just last year, at the urging of my daughter, who is a 
rabid fan of Olympic ice skating and also of my son who is a 
fan of both Olympic hockey and skiing, the Shadegg Family 
enjoyed the inspiration of attending the Olympics.
    The history of those games is remarkable. Just think of a 
few examples. The United States upsetting the vaunted Soviet 
hockey team at Lake Placid.
    Or the sight of Keri Strugg sticking her landing to spite 
an injured ankle. Or the falls of Dan Jansen before he rose up 
in triumphed.
    Fortunately, those and many other great moments are the 
ones that stick in people's memories when they think of the 
Olympics, not the dark moments.
    The bribery scandal which preceded the Salt Lake City 
Olympics or the recent in-fighting in the U.S. Olympic 
Committee.
    However, that should not detract us from examining the 
organization of the USOC. In deed, since the USOC in many ways 
is the group that oversees how many in the world view the 
United States, it must step up to the challenges of its 
Ambassadorial role.
    As such, we need to ensure that the Olympic Committee's 
focus is on athletes and not on its own management 
difficulties.
    Athletes need focus and direction to be successful. But 
from all evidence, the USOC lacks focus and directions. 
Athletes need to maintain strict discipline to achieve 
performance.
    And yet from all evidence the USOC is undisciplined. It has 
bloated salaries and high expenses. Athletes need to have 
support to win.
    And from evidence, the USOC can do a better job of 
supporting our athletes. Mr. Chairman, I am loathe to have the 
U.S. Congress get into the day-to-day management of the USOC. 
However, it maybe wise to have the Congress set out some 
direction for the committee as we move forward.
    Today, across America, young people are training hard to be 
able to compete at their highest, possible level. It seems to 
me that our focus needs to be on enabling that training and 
facilitating those athletes to continue and remove any 
unnecessary burdens or barriers.
    Mr. Chairman, I look forward to hearing from our witnesses 
and working with you on this issue so that we might improve the 
circumstances under which our athletes train and prepare for 
the Olympics.
    I thank you and yield back my time.
    Mr. Stearns. And I thank my distinguished colleague from 
Arizona, Mr. Shadegg. And the gentleman from Nebraska.
    Mr. Terry. Waive.
    Mr. Stearns. Okay, waive.
    [Additional statements submitted for the record follow:]

Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming

    Thank you, Mr. Chairman, for holding this timely hearing.
    I would like to welcome my colleagues, Senator Ben Nighthorse 
Campbell and Congressman Jim Ryun.
    Their testimony and presence today, as both Olympic athletes and 
overseeing legislators, will provide invaluable insight into the U.S. 
Olympic Committee's current state of affairs.
    The U.S. Olympic program exudes the very essence of the American 
Spirit. It provides unspeakable opportunities to any man, woman or 
child who dares to dream big enough. The message is clear to all with 
the ambition--your hard work, determination and God given talents can 
soar here.
    A fellow Wyomingite who embodies that very thing is a member of the 
second panel. Against all odds in the 2000 Summer Olympics in Sydney, 
Australia Rulon Gardner upset the three-time Olympic Greco-Roman 
champion from Russia and took home the Gold Medal.
    This tremendous victory will forever be remembered and celebrated. 
It instilled and reignited the spark of hope in all who aspire to such 
athletic excellence.
    While these triumphant moments will remain, the time has come to 
shed light on another aspect of the Olympics. The U.S. Olympic 
Committee (USOC).
    In recent months, a number of troubling factors within the USOC 
have come to light. It is first and foremost an unfortunate situation 
that potentially compromises our fundamental belief in what has been a 
tremendous source of pride.
    That is why we must examine the structure and mission of the USOC. 
It is my hope the testimony heard today will shed further light on what 
necessary steps might be taken to strengthen the Olympic movement in 
our country.
    Thank you, Mr. Chairman and I yield back the remainder of my time.
                                 ______
                                 
 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                         on Energy and Commerce

    Last year this Committee investigated and uncovered several high 
profile corporate failures. The details of the corruption and 
mismanagement that were the undoing of these former high flyers are 
legendary now. So when a non-profit organization experiences the type 
of problems that precipitated the resignations at the USOC recently, it 
is noteworthy but may seem minor in comparison.
    Yet there is a difference when the organization under discussion 
holds our national trust, as does the USOC. The dreams, hopes, and 
inspiration for many Americans are often traced to an Olympic hero. It 
is for this reason that the recent stumbles of the USOC have garnered 
so much attention.
    The ideal of integrity the Olympics represent should be the 
singular focus and governing factor in every decision made by the USOC. 
It is not clear whether the resignations of USOC officials indicate a 
systemic problem or if they were a single random event. Regardless, the 
USOC faces a problem: we are a forgiving nation, but we do not always 
forget. Restoring the integrity of our Olympic movement and the trust 
of the people is of paramount importance not only for today's athletes, 
but also for future generations of aspiring athletes.
    The USOC has taken the initial steps necessary to restore its image 
by forming an internal task force and appointing an independent 
commission to perform separate reviews. Very few of us are neither 
experts on managing a multi-million dollar non-profit nor experts on 
the needs of the diverse sports organizations that are served by the 
USOC. We will therefore rely heavily on the recommendations of the 
experts involved.
    I believe Congress can aid in this process as well. We should not 
be viewed as an adversary; we are here to assist you in any way we can. 
Perhaps the biggest help we can provide is through a process of 
education and discussion. There is a lot on the table to discuss, and 
it is not clear that downsizing, streamlining, or making changes at the 
margins to the organizational structure will take the USOC where it 
needs to be. While some changes are a forgone conclusion, the size and 
scope of any changes should reflect and be compatible with the USOC's 
mission.
    Defining the USOC's mission appears to be the most important issue 
we need to discuss. The USOC's responsibilities are numerous and 
varied. Should they be charged with facilitating participation in local 
communities and providing services duplicative of other organizations? 
While many voices need to be heard, we should not shy away from this 
opportunity to examine and define the USOC's responsibilities. It has 
been 25 years since Congress created the USOC. To say this is a vastly 
different country now than it was then is an understatement. Perhaps it 
is time that the USOC reflect these changes.
    I thank the Subcommittee Chair for assembling this excellent panel 
of experts. I look forward to hearing their views and continuing the 
dialogue with all interested parties.

    Mr. Stearns. With that, we will move to our first panel. It 
is a pleasure to welcome two very distinguished Members of 
Congress and former Olympians who will testify.
    Senator Ben Nighthorse Campbell of Colorado served in the 
House from 1987 to 1993, and it now in his second term in the 
Senate. Prior to his service he was a Rancher, Horse Trainer, a 
Teacher, Designer of jewelry and is a Judo Champion.
    The Senator was on the U.S. Judo Team in the 1964 Olympics. 
Our other colleague from the House, Congressman Jim Ryun of 
Kansas is now in his fourth term.
    The Congressman participated in three Olympics and won the 
silver medal in the 1500 meter run in 1968. In addition to 
being a world class athlete, Jim Ryun has served as a 
Motivational Speaker, Author and Consultant.
    So I welcome, sincerely, both of my colleagues and I 
appreciate your time. We will start off with Senator Campbell.

   STATEMENTS OF HON. BEN NIGHTHORSE CAMPBELL, A U.S. SENATOR 
FROM THE STATE OF COLORADO; AND HON. JIM RYUN, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF KANSAS

    Senator Campbell. Thank you, Mr. Chairman, and thank you 
for showing an interest in this issue and conducting this 
hearing. And I am just delighted to be here with my colleague 
and a team member.
    Even though we were on different Olympic teams, once you 
are an Olympian you are sort of the teammate of everybody that 
has passed before you and after you.
    And I am just delighted to be here with a, not only a very 
fine Congressman, but a world-renowned athlete too, as Jim was.
    I want to tell you that we are very proud in Colorado that 
the United States Olympic committee is housed in our State. 
When I was in the legislature it was only a few years after the 
decision was made to transfer an Air Force Base, which was 
government property, to the Olympic committee to be their 
headquarters and their training facility.
    And in those days many of us worked very hard on the 
Colorado legislature to get, as an example, in-State tuition of 
young athletes who wanted to train there and also go to school, 
to waive the in-State requirements for doctors, if they were 
doctors from other States who would come to the Olympic 
committee to practice medicine for the athletes.
    We even passed a bill in the legislature to allow people 
paying their State income tax to check off a dollar to go 
directly to the Olympic Committee. Which, for a while, raised 
about $200,000 for the team.
    I think in this whole dialog, if I can take just a moment, 
that there are thousands of supporters of the Olympic team and 
there many unsung heroes, Nutritionists and Coaches and 
Trainers and on and on.
    And when we talk about the problems that are basically 
management problems, I think we tend to cast a broad net and 
maybe paint with a very broad brush.
    But having the Olympic committee in our State, I can tell 
you the vast majority of people that have anything to do with 
the Olympic Games are just hard working and dedicated to trying 
to make youngsters be the best they can be.
    We are very proud of all the people that win gold medals as 
any American would be. But for everyone that wins that, there 
are literally hundreds and hundreds that are trying equally 
hard, but just didn't quite make it.
    But we think that citizenship and fair play and dedication 
to effort is an equally important mission for the U.S. Olympic 
Committee.
    I have been here almost 18 years now, and for a while there 
were three of us, Senator Bill Bradley and Tom McMillan, who 
was a colleague of yours and you knew very well.
    And for years, you know, it was a very proud, being noted 
by the Olympic team that they didn't get any government help.
    Unlike many States in which sports are controlled by a 
bureaucrat at government level that pretty much dictates and 
mandates everything that goes on in that amateur sport.
    That is the way the Soviet Union did and many of the 
communist countries still do today. We have always been proud 
of the fact that government has had kind of a hands off 
approach to it.
    But times are changing. And during the years that Tom and 
Bill and I were here, we formed what was called an Olympic 
Caucus of House members and Senate members who were interested 
in the Olympic movement.
    And basically it was kind of a bumper group that would step 
in and have some voice if some of our colleagues it may, it 
should be nationalized or the charter should be changed 
someway.
    And so we were very careful with that. Well, the need sort 
of went down and so Bill and Tom both left and now its just me 
on the Senate side with Jim on the House side.
    But clearly the problems that we face with the Olympic 
Committee, I think, need to be distinguished from the average 
rank and file people that are working every day to make it a 
better committee.
    Now, of course, there is big money involved in the Olympic. 
Not only the money they raise, but the money we put in to, 
through indirect funding.
    I saw one number that said the Salt Lake Games might have 
been over $4 billion expense for the Federal Government if you 
factor in, not only all the security, which was considerable.
    ATF was there. The FBI was there. The military was there, 
as you know. But also the infrastructure that goes to build, 
for instance, off-ramps from the main thoroughfares to the 
Olympic venues.
    That is almost done at taxpayers' expense. We provide that 
money through our transportation bills and transportation 
appropriation committee.
    So we do have a vested interest in kind of watching how a 
taxpayer's money is spent. We, as you know, have done two 
hearings on the Senate side under the authority of their Senate 
Commerce Committee, with Senator McCain chairing.
    And in those two hearings we, I think we clearly recognized 
it is time to make some changes and as Congressman Stupak 
mentioned, there have been some attempts to have some internal 
change done, but they have not gone very far.
    That is probably not as easily said as done because when 
you have a large board and almost everybody on that board 
represents an individual sport that may not have anything to do 
with another sport, there is always some turf involved and some 
worries about whether they may be left out if there is a 
change.
    And we understand that. But the thing really was brought to 
a head when there was a recent recognition by several members 
of the Ethics Committee based on a disagreement between the CEO 
of the Olympic committee and the President of the Olympic 
committee.
    Both thought they had a certain amount of authority, which 
apparently was not well defined in their by-laws about who had 
which authority to be spokesman at international levels.
    In any event, at the end of the two hearings, as you 
mentioned, Senator McCain did authorize an independent 
commission of five people, and they are supposed to report back 
to the U.S. Senate by the 30th, with their recommendations on 
what they are to do from a Federal level.
    In having lunch with Senator McCain yesterday, he told me 
we were going to move forward for sure under his authority and 
will be revising the Amateur Sports Act of 1978.
    Senator Stevens wrote that bill, by the way, and he is our 
President Emeritus, the President Pro Tem, excuse me, in the 
U.S. Senate now, as you know. When this, as it has been called, 
this functionalism came to light, I don't think that is where 
the beginning was.
    As I look back on where things began to go wrong, it seemed 
to me that when the Olympic Committee, about 4 years ago, or 
maybe a little more, authorized a study that was called the 
McKinsey report, that came back and recommended that the 
Olympic committee be run more like a corporation.
    I think that is where some of the people began to lose 
their way. The Olympic committee is big money, no question 
about it, and I think they have to have some good corporate 
practices there in order to manage it well.
    But it is also a non-profit and it is also a system of 
training young people. It is a little different mission, maybe 
a big different mission than a straight corporate board would 
do.
    And in my view, what happened after that was that there 
were at least a few people that began to develop what I call a 
cultural privilege in what I deem to be a real abuse of how 
money is spent.
    And some of the numbers that we got back, I mean it just, I 
couldn't believe some of the first ones we were getting back. 
But how much money was being spent that I considered wasteful 
or self-serving.
    In any event, Senator Stevens and I subsequently made a 
trip out to the United States Olympic Committee to talk to the 
athletes, the coaches, the management people were there.
    And there was an awful lot of newspaper print, as you might 
guess, and television attention before we even got there.
    We have, our office has a satellite office in Colorado 
Springs. We started getting a lot of calls from people that 
actually worked at the Olympic Committee, volunteering 
information of mismanagement, of things that they thought were 
wrong, that shouldn't be.
    And we told them that we, you know, I am your Senator so 
they have a right to come in and talk to me, obviously, but we 
didn't want them to just come in and be finger pointing and 
gossiping and, you know, he said, she said and so on.
    But if they had some documentation that they thought would 
be of interest to the U.S. Congress, they should provide that.
    We ended up with a book, I think, between an inch and a 
half and two inches thick of documentation. Which we very 
frankly now don't know what to do with.
    Some of that information was leaked to the press before we 
even got it, so it is already public knowledge. Some of it, I 
am not an attorney, but after reviewing some of it, Senator 
Stevens said he thought some of it bordered on violation of 
fraud laws, at least, and maybe other things.
    But when we talk about what we do with that information 
now, one of the things that I personally would like to avoid, 
very frankly, is dragging our team through any more mud.
    While at the same time, fixing the problems that have 
gotten them in trouble in the first place. We have had 
suggestions that we turn it over to the GAO and ask for an 
independent audit of how the finances are being handled.
    We have had a suggestion that we turn it over to the 
Justice Department to see if any civil rights violations have 
been made or any fraud laws have been broken, things of that 
nature.
    But in the meantime, some of the people that were really at 
the center of the storm have resigned and have left. The 
President of the USOC has resigned, Ms. Markmeyer resigned.
    Mr. Ward, who was the CEO, resigned. His right-hand helper, 
I forgot his name, I am sorry, it slips my mind right now, also 
resigned.
    And so I am not sure to what end it would do with all this 
information. However, I will tell the chairman of the committee 
you are interested in looking at it and he will be happy to 
provide that to you.
    But since not being an attorney, what I saw in reading that 
sounded much more in the realm of white collar crime. I 
thought, well, if we go forward with it and some of the people 
who are really responsible for this are gone, what would we end 
up doing?
    Slapping somebody on the wrist? Promoting more and more bad 
stories about a basically good willed organization? And so 
there we are in that quandary.
    But Senator McCain has indicated that when we get back the 
report from this independent commission, which will be here on 
the 30th, he intends to move forward with some changes in the 
Amateur Sports Act.
    I think, very frankly, under the new leadership of Bill 
Martin from the University of Michigan, as Congressman Upton 
very proudly has said, I think we are really beginning to turn 
the corner.
    His experience is renowned and his credentials, I think, 
are just sterling. And more than anything else, his heart is in 
the right place.
    And knows that the emphasis has got to be on our young 
people more than anything else. But we will be doing something, 
probably accepting some of their recommendations, too, that 
would be my guess.
    And we are hoping that they will, as you mentioned, they 
have an internal committee also working on how to streamline. 
They will probably come forward with some suggestions and that 
will be coupled with what the independent commission recommends 
to and we will go from there.
    But as I mentioned before, the vast majority of people that 
have been tainted with this, unfortunately, have been done so 
very unfairly.
    Having visited out there and knowing some of the athletes 
themselves, when I went around and talked to them, many of them 
are doing a terrific job and they are really focused on 2002, 
and we hope to get this behind us, long before 2002.
    And when the games will be Athens, instead of letting this 
hang over our head any longer. And we fully recognize that 
sometimes you have different problems at different levels.
    The IOC clearly has some problems. The USOC has some 
problems also. The organizing committee, as it was in Salt 
Lake, also had problems.
    Sometimes they work in concert and sometimes, very frankly, 
they don't work very well together. And some of their decisions 
are made somewhat independently of each other.
    But I would hope that our young athletes would not be 
distracted and I am very thankful that you invited some of 
them, that are actually in competition now, and not retired 
like some of us old-timers or retired like some of the recent 
ones that are just coaching now.
    Some that are actually going to be in Athens and are going 
to be in competition themselves will be able to testify, and I 
am looking forwards to that. Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Ben Nighthorse Campbell 
follows:]

Prepared Statement of Hon. Ben Nighthorse Campbell, a U.S. Senator from 
                         the State of Colorado

    Thank you Mr. Chairman for allowing me to testify today. As you 
know, I have a vested interest in this issue, not only as senior 
Senator of the state where the USOC is headquartered, but also as one 
of Congress's two current members that are former Olympians.
    My time as a member of the U.S. Olympic Team provided me with 
considerable opportunities that I might not otherwise have had and 
fostered lifelong friendships that I will always treasure.
    I was literally raised in the Olympic movement and without it, I 
would probably be a member of another institution, but one with bars 
and guards. Because of these memories, I decided that I would do what I 
could to help other athletes have the same experiences that I did.
    I first started working to help the USOC as a member of the 
Colorado State Legislature where I worked on legislation providing a 
state income tax check-off to raise money for the USOC. I also worked 
on language to give tuition waivers to out-of-state student athletes 
training in Colorado and to waive in-state certification for doctors 
working at USOC headquarters.
    Since I have been a member of Congress, I have been one of the 
strongest supporters of the Olympic movement.
    As a member of the Senate Appropriations Committee, I have been 
working for the last six years to provide the USOC with a new office 
building in Colorado Springs.
    I have worked to provide $14 million for the USOC's drug-testing 
administration that has been provided directly to USADA (United States 
Anti-Doping Agency) so that the ONDCP (Office of National Drug Control 
Policy) does not have administration powers or any other oversight.
    Congressional oversight is something we have tried to avoid since 
the creation of the Amateur Sports Act of 1978. Former Senator Bill 
Bradley, Former Representative Tom McMillan, and I formed a bipartisan 
caucus with other members who believed in the Olympic ideals to act as 
a buffer against any potential Congressional oversight of the Olympic 
team.
    After all of the difficulties the USOC has had over the past few 
years regarding financial mismanagement, ethics improprieties, and 
massive organizational dysfunction, it became apparent that Congress 
did need to step in. While not providing direct support to the USOC, 
this government has a great interest in the USOC as it has provided 
millions of dollars and thousands of man-hours to support Olympic 
events here in the U.S. and worldwide.
    As you know, the Senate Commerce Committee held two hearings this 
year to look into ethics violations only to discover many deeper 
problems in organizational difficulties. Following these hearings, many 
current and former employees and athletes came forward, both publicly 
and anonymously, to express their feelings and views and let me and my 
staff know of their complaints.
    Let me just say that it was eye opening to see the huge travel 
budgets, unnecessarily large severance packages, and bloated salaries, 
all occurring while athletes are having to live day to day and, in some 
cases, finance much of their own training in order to compete for their 
country.
    But through these hearings and media reports, we are all aware of 
what's been said and it is not necessary to dwell on it as long as it 
is recognized that these improprieties cannot occur again. Now is the 
time to move beyond these problems to create a new Olympic organization 
that will better serve its mission to promote the Olympic ideals and to 
develop and prepare our nation's athletes to compete against the rest 
of the world.
    I will credit the USOC for creating a task force to look at its own 
problems. But given everything I have come across through the ethics 
investigations, I don't know who can be trusted.
    This is why Senator McCain, Senator Stevens, and I have created an 
independent commission to look at the necessary changes at the USOC. We 
have our ideas, but I think that we'd like to avoid imposing Congress's 
will through legislation, if that is at all possible.
    But at the same time, legislation and Congressional oversight isn't 
impossible and I must remind everyone involved that it can be done and 
will be done if necessary.
    Thank you Mr. Chairman.

    Mr. Stearns. Thank you, Senator.
    Our colleague, Jim.

                   STATEMENT OF HON. JIM RYUN

    Mr. Ryun. Thank you, Mr. Chairman, members of the 
committee. I appreciate the opportunity to sit here with my 
friend and fellow Olympian, Senator Campbell, who by the way 
isn't really a bad fencer.
    We have had a little competition with that along the way.
    Senator Campbell. To enlighten you, Mr. Chairman, someone 
got the two of us into a fencing match. Neither of us knows a 
broad sword from a foil, but we did our best.
    Mr. Ryun. And we had a good time sharing that experience 
and it really was a good experience, with the Olympic committee 
here in Washington.
    And I trust that this subcommittee's investigation and the 
continuing cooperation with the USC will actually yield some 
strong solutions to the problem facing the Olympic Committee.
    Let me begin by first of all echoing some of the concerns 
that Ben has expressed with regard to the Olympic movement and 
how far it reaches into the fabric of American society.
    When you consider the athlete, we often focus upon him. 
There is usually a coach, there is a sponsor, there are 
sometimes children, if they are old enough. You have the 
support groups that go with it.
    So, it reaches deep when you think of how the process is 
completed. Usually starting on a local level, then a State 
level and then a national level. And then you have to meet 
certain qualification standards and work your way through the 
process.
    My only point in highlighting that is that whatever you do 
here it is important that it is done right, because it does 
send a very clear message to the young people of this country, 
many of whom have high aspirations of maybe winning an Olympic 
medal, or at least being a part of the Olympic movement, and 
being a part of the Olympic team.
    For over 100 years the aim of the Olympic movement has been 
to build a peaceful and better world by educating youth through 
sport by bringing together athletes from all countries in 
sincere and impartial competition by sharing mutual 
understanding bound by friendship, solidarity and fair play 
that is a part of the Olympic spirit.
    As a three-time Olympic athlete, I have experienced first-
hand the pinnacle of Olympic spirit. I have also fully 
appreciated what a positive force the USOC can be on young 
athletes.
    Created to, in the words of the USOC's current institution, 
and I quote, may the world's best national Olympic committee 
help U.S. Olympic athletes achieve sustained competitive 
excellence while inspiring all Americans and preserving the 
Olympic ideal.
    The committee has often lived up to its calling and its 
mission. However, scandal has followed scandal over the past 
several years and this is deeply, deeply troubling.
    Although these actions probably have not interfered with 
the training success of our athletes, they have certainly 
tarnished the image of the USOC and the Olympic movement.
    Mr. Chairman, I hope your subcommittee, through this and 
other similar hearings, will discover some of the root causes 
of these scandals and associated problems.
    Whether the causes are structural or lack of transparency, 
poorly realized mission and strategy, or some other reason, the 
need to restore confidence in the USOC is very important to the 
continued success of the Olympic movement.
    Some of the problems with the USOC are easy to identify. 
For instance, and you highlighted this a moment ago. With a 122 
board of directors, along with their unusually layered 
management structure, including paid staff and volunteer 
executives, it is hard to imagine how effective the structure 
can be in carrying out its mission.
    However, other problems, along with their corresponding 
solutions, are not so easily visible. This is one of the 
reasons I appreciate the recent comments and actions of USOC 
President Bill Martin.
    You had created a task force called by Mr. Martin and is 
charged to review the USOC from top to bottom and to devise 
major structural changes in policy revisions.
    I have heard the group will focus on six areas. Ethic 
behavior; governance and organizational structure; maintenance 
of sensitive, confidential and proprietary information; 
communications policies; openness; transparency in disclosure; 
and fund raising efficiency.
    This is the first tremendous step and I applaud Mr. Martin 
for this actions. I hope the task force will review and develop 
strong recommendations for the structural changes needed to 
address the problem plaguing the USOC.
    During this process I encourage the task force to remain 
focused on the well-being of the athletes. A much needed 
streamlining of the organizational structure and more open and 
transparent environment and the required confidence building 
measures needed to repolish the image of the Olympic Committee.
    Mr. Chairman, again, I thank you for the opportunity to be 
here and provide a statement to the subcommittee. I would be 
happy to entertain any questions some of the members might have 
at this time.
    [The prepared statement of Hon. Jim Ryun follows:]

                  Prepared Statement of Hon. Jim Ryun

    Thank you Mr. Chairman, members of the Committee. I appreciate the 
opportunity to sit here with my friend and fellow Olympian, Senator 
Campbell, and provide you some personal thoughts on the US Olympic 
Committee. I trust that this subcommittee's investigation and 
continuing cooperation with the USOC will yield strong solutions to the 
problems facing the Olympic Committee.
    For over 100 years the aim of the Olympic Movement has been to 
build a peaceful and better world by educating youth through sport, by 
bringing together athletes from all countries in sincere and impartial 
competition and by sharing the mutual understanding bound by 
friendship, solidarity and fair play that is the Olympic Spirit.
    As a three-time Olympic athlete, I have experienced first-hand the 
pinnacle of the Olympic Spirit and also fully appreciate what a 
positive force the USOC can be on young athletes. Created to, in the 
words of the USOC's Constitution, ``Lead the world's best National 
Olympic Committee: Help U.S. Olympic athletes achieve sustained 
competitive excellence while inspiring all Americans and preserving the 
Olympic ideal,'' the Committee has often lived up to its calling and 
mission.
    However, scandal has followed scandal over the past several years. 
This is deeply troubling. Although these actions probably have not 
interfered with the training and success of our athletes, they have 
certainly tarnished the image of the USOC and the Olympic movement.
    Mr. Chairman, I hope your subcommittee, through this and other 
similar hearings, will discover some of the root causes of these 
scandals and associated problems. Whether the causes are structural, a 
lack of transparency, a poorly-realized mission and strategy, or some 
other reason, the need to restore confidence in the USOC is very 
important to the continued success of the Olympic movement.
    Some of the problems with the USOC are easy to identify. For 
instance, with a 123-member board of directors, along with an unusual 
and layered management structure including paid staff and volunteer 
executives, it is hard to imagine how effective this structure can be 
in carrying out its mission. However, other problems, along with their 
corresponding solutions are not so easily visible.
    This is one of the reasons I appreciate the recent comments and 
actions of USOC President, Bill Martin. The newly-created Task Force, 
called for by Mr. Martin, is charged to review the USOC from top to 
bottom to devise major structural changes and policy revisions. I have 
heard that the group will focus on six areas: ethical behavior; 
governance and organizational structure; maintenance of sensitive, 
confidential and proprietary information; communications policies; 
openness, transparency and disclosure; and fundraising efficiency. This 
is a tremendous first step, and I applaud Mr. Martin's judicious 
actions.
    I hope this Task Force review will develop strong recommendations 
for the structural changes needed to address the problems plaguing the 
USOC. --During this process, I encourage the Task Force to remain 
focused on the well-being of the athletes, a much needed streamlining 
of the organizational structure, a more open and transparent 
environment, and the required confidence-building measures needed to 
re-polish the image of the Olympic Committee.
    Mr. Chairman, again, thank you for this opportunity to provide a 
statement to your Subcommittee. I would be happy to entertain any 
questions you or other Members may have.

    Mr. Stearns. I thank both of my colleagues. I really don't 
have questions. I think, Senator Campbell, I am struck by three 
things you said.
    I don't think the American people realize that $4 billion 
was spent by taxpayers on the Olympics. I mean I had never 
heard that number.
    Senator Campbell. I might add, Mr. Chairman, that about a 
year ago Senator Stevens and I and several members of the 
Appropriations Committee traveled to Greece.
    We went to several other countries too, but we did go to 
Greece. We already have Americans in Greece now training people 
for any potential terrorist event for the Athens games.
    That is to the extent we go as Americans to help other 
countries make sure that their games are safe for athletes, for 
officials and for coaches.
    Mr. Stearns. Big financial commitment.
    Senator Campbell. Well, we are financing those people, 
Americans that are over there. But there were some, we talked 
to the Prime Minister of Greece and several of the cabinet 
members who assured us that it would be safe.
    The venue would be completely done and all of those other 
things. And I hope it is. But our interest, of course, was 
making sure that it, that we are participating.
    So even when the games are not in this country, we do 
provide some of the money.
    Mr. Stearns. Your other comment that a culture of privilege 
has developed, is obviously a concern. And then this book that 
you mention.
    I am sort of nonplused, like you, what to do with it, 
because you don't want to damage further. But if you have 
individuals that have committed fraud and there is criminal 
activity, that, I think, is important.
    So, perhaps, a question I have is do you think this book 
should be given to Mr. Martin?
    Senator Campbell. We have offered to let Mr. Martin review 
it, if he would like to.
    Mr. Stearns. Okay, okay.
    Senator Campbell. As I mentioned, some of it had already 
been leaked to the press before we got, so it is already common 
knowledge.
    Mr. Stearns. Okay.
    Senator Campbell. We were also very careful that the people 
who provided this information would not be at the end of some 
retribution by mid-management or upper-management people.
    Mr. Martin has assured me that is not going to happen. And 
I have assured the people in Colorado Springs that will not 
happen either.
    And, although, I have to tell you that when we originally 
went out there, both Senator Stevens and I thought that because 
it was a federally chartered institution that the employees 
would be protected as government officials are by the Whistle 
Blowers Act, and they are not.
    And so Senator Stevens has indicated one of his first 
efforts in this whole restructuring is going to be protection 
for employees of the Olympic committee in that bill.
    Mr. Stearns. I think that is important. Having gone through 
the Oversight Committee on Enron and Worldcom and Qwest and 
Imclone, the Whistle Blower protection is extremely important.
    So I think obviously that should be part of legislation. 
Mr. Stupak, do you any questions.
    Mr. Ryun. Mr. Chairman, if I may, can I make another 
comment. I know the committee takes very seriously the charge 
and the process of oversight.
    But I might just remind you that every 4 years literally 
billions of people watch the Olympic. Now having said that, 
there is a great deal of interest in what is going on here.
    We often think of this as being just a national issue, but 
the rest of the world is watching what is going to happen with 
the USOC.
    So, you know, I know you take that seriously, but there is 
a larger audience out there and that is why it is important 
that we get it right this time.
    Mr. Stupak. Thank you, Mr. Chairman. Let me thank both of 
our witnesses for being here and let me thank them for the 
help. On this side of the House we have been spear-heading the 
Olympic Education Scholarships, and both Senator Campbell and 
Jim Ryun have helped us out on those scholarships to try and 
help some of our athletes to get an education while they train 
to represent their country in their chosen sports.
    I want to thank them for their help there. Senator 
Campbell, what in your mind has really broken down over the 
years regarding the USOC? I know you have done this----
    Senator Campbell. If I could put it in a perspective, going 
back to my era, which I was on the 1964 team, we have come a 
long way.
    In those days you were pretty much on your own until the 
trials. I mean you supported yourself. If you got hurt, you 
were on your own.
    There was no medical support, nothing, I mean that was it. 
And if you didn't have a job, and in fact, some people actually 
lost their jobs. When they would make the team, they would be 
fired for losing time at work.
    And after we won our trials we would simply get together in 
a designated city, which was a kick off. We would get our 
uniforms issued and so on and then go to wherever the games 
were.
    And then when you came back, you were totally on your own 
again. Little by little that has changed now. So if a young 
athlete wants to try out now, in fact, even if they are not in 
the top level of their skill.
    If they are just interested in doing it, there is an avenue 
where they can train and work their way up. And in fact, I 
think there is about, oh, maybe 11 or a dozen full-time teams 
that train year-round at Colorado Springs.
    Others train in Lake Placid, as you know, and some other 
places. But they have come along way. I went and visited the 
doctors when I was out there, the trainers, and ate with some 
of the team members.
    And I kept thinking that when I was going through that, 
boy, if we could have only had this. So all that has been made 
available because of the good will of every Mom and Pop that 
sends $10.
    And, of course, the big corporation sponsors that are very 
interested in what we are doing. Because when I was there I 
happened to talk to the people from McDonald's, and encouraged 
them to stick with us.
    This is going to get ironed out and they shouldn't let 
their confidence be shaken. But at you probably know, several 
sponsors have already said that they are a little worried and 
wondering whether they should pull their sponsorships or not.
    And we, I am the first one to try and discourage them from 
doing that because it is going to get better. We have come a 
long way and now we have to realize that because of this new 
management problem, we have got a long way to go yet.
    But I look forward to doing that and I know we can. But it 
seemed to me, as I mentioned earlier, it began to change when 
the McKinsey Report was issued.
    Which basically says they should move more toward a 
corporate management style.
    Mr. Stupak. Jim, anything you want add on that?
    Mr. Ryun. Just that you really are dealing with a lot of 
different jurisdictional issues, and it is hard to get it right 
because, you know, Ben's needs and for what he was doing were 
different than, say, the track and field athletes' needs.
    And so with those dynamics, even though you need a 
sponsorship and I am saying that is an essential part of it, 
you had to pull those things all together and to make it work.
    And I think, you know, really what we are looking at here 
is kind of like a family relationship. And it is the refining 
of those particular characteristics that is going to lead to 
better management and a better program.
    But it is a painful process, as well.
    Mr. Stupak. Well, 2 years ago we looked at what had 
happened with Salt Lake and Atlanta. And, again, as I said in 
my opening, we did our investigation and then they said they 
would reform, things would get better.
    And here we are 2 years later, going through basically the 
same allegations and the same problems. Do you believe Congress 
will need to do more oversight, not only of the USOC but also 
the IOC? Senator?
    Senator Campbell. Well, we have very limited ability to 
oversee what the IOC does, as you know. Much more with the 
USOC, but I think the time has come that we have to.
    I am not sure, very honestly, Congressman Stupak, I am not 
sure that they can reform themselves to the degree they need 
to.
    It is a complicated, difficult thing. And we have 122 
members on that board. And many of them, you know, they 
represent a lot of different sports.
    Mr. Stupak. True.
    Senator Campbell. In fact, when I looked at the list, the 
new list of all the sports, I didn't recognize some of those 
sports. I didn't know what they were.
    And even when I went out to the Olympic committee the other 
day and I watched women's weight lifting and women's wrestling 
and some other things.
    I know wrestling and I know weight lifting, but my group, 
you know, it was pretty much a man's sport. A lot of changes 
have been made. And with every change there comes a 
constituency and an agenda for that particular sport.
    So when you have 122 members on that board, many of the 
members are much more interested in their own sport and their 
agenda than they are of the total picture.
    And then you add to that about $150 million a year that the 
USOC is raising now, you can see it complicates it. A few years 
ago, about 3 or 4 years ago, there was several groups that were 
leaning on Senator Stevens to revise the Sports Act and require 
the Olympic committee to divide up some of the money based on 
the percentage to their sports.
    And Senator Stevens and I went out and did a hearing at 
that time. And we rejected that notion. We thought the Olympic 
committee was very capable of deciding how much money went to 
each one of the sports, the governing bodies of each sport.
    But clearly, money itself has changed the dynamics of the 
movement.
    Mr. Stupak. Jim, would you care to comment?
    Mr. Ryun. I would say clearly money has changed the 
dynamics but it has been a positive influence. And I can 
remember 1964, as well, and how hard it was for the athletes 
just to make the team, and they had to provide for their own 
support.
    While money has created an avenue of making it possible, it 
has also created the problem. So it is worth the battle. You 
know, one of their recommendation is greater transparency. I 
agree with that.
    And somehow we have to take, put the polish back on the 
Olympic Committee, the U.S. Olympic Committee, so we can move 
ahead of our sponsors.
    Because it is not very far off before we will again be 
putting together an Olympic game.
    Senator Campbell. If I could add one comment to that. One 
of the things, I wish I had brought the charts over that we had 
staff make for our hearings over on the Senate side.
    But one of the things that I got very interested in when I 
thought that there was some mismanagement about how the money 
was used was the Forbes study about 6 months ago.
    That studied the top 200 non-profits about most efficient 
use of money. The Red Cross was at the top, as I remember, that 
had like an 85 percent efficiency rating, meaning only 15 
percent went to overhead and the other 85 went to what their 
mission was.
    The Olympic committee was one of the three worst, the three 
bottom ones with something like a 65 percent efficiency rating.
    That told me that there was a lot of money going to other 
places than what their mission should of been, which was to the 
athletes.
    And then we, we tried to get some comparative charts made, 
well we did get them made, of how the Red Cross is an example 
and some of the other ones, how their lines of authority go.
    How there chain of command goes. And then we did one of the 
Olympic Committee. One of the people testified that it looked 
like a bowl of spaghetti.
    And when I first saw it, the first thing I thought was it 
looked like something you might see in a Rorschach test. There 
were all kinds of lines going all kinds of ways.
    I mean I couldn't even figure the thing out about who had 
responsibility to who. But clearly they have some structural 
problems that need to be changed.
    And some of that they can probably do internally and some 
of it we have got to do. One of the things that I noted was 
that one of the people that resigned from the Ethics Committee, 
in fact, was working for a person who he would then have to 
judge, he would have to judge his behavior as a member of the 
Ethics Committee.
    Well, that puts them both in a very uncomfortable and 
precarious position. You are working for a guy who you are 
going to have to judge his ethical behavior when he does 
something wrong?
    Tough place of anyone to be. So they need a lot of 
structural changes and hopefully we will be able to do that 
using some more efficient systems of governance.
    Mr. Stupak. Thanks.
    Mr. Stearns. Thanks, gentlemen. The gentleman from 
Michigan.
    Mr. Upton. Thank you, Mr. Chairman. I just want to thank 
you both and the witnesses following as well. And sadly for me, 
there are a number of different pressing scheduling conflicts.
    We have a mark-up downstairs in Energy and I have a 
briefing over on the Capitol floor. I just want to say that 
what you have said underscores the need for a fix and I know 
that we can work together.
    And I have the greatest confidence in Bill Martin to 
provide us the best and most honest advice so that we can, in 
fact, do what every American wants us to do.
    And I appreciate your help on this and look forwards to 
your continued leadership. And yield back the balance of my 
time.
    Mr. Stearns. Thank you, gentleman. Anyone else wish to ask 
questions to colleagues? Barbara?
    Ms. Cubin. No, thank you.
    Mr. Stearns. Okay. Thank you very much for your time and we 
appreciate your thoughts. If now the second panel will come 
forward.
    We have two members who want to introduce two of the 
people. I will allow them to do so and I will mention the other 
individuals.
    Rachel Godino, Chair, Athletes' Advisory Council, United 
States Olympic Committee, National Headquarters. Harvey 
Schiller. Dr. Schiller is President and Chief Executive Officer 
of Assante.
    He is 1 of the 5 persons of the task force that Senator 
McCain has put together. Robert Marbut, Chairman, National 
Governing Bodies' Council, United States Olympic Committee.
    Jim McCarthy, a member, board of directors, United States 
Olympic Committee, National Headquarters. I will let me, please 
have a seat and I will let my colleague, Fred Upton, introduce 
the acting chairman.
    Mr. Upton. Mr. Chairman, you don't know how much I 
appreciate introducing an amazing blue guy to a Florida guy 
after the Orange Bowl win on January 1.
    And as I had the great privilege of saying such to your 
Governor, Jeb Bush, when he testified on Medicaid last week, as 
well, particularly in the big house, the committee hearing room 
downstairs.
    But I just want to say that Bill Martin has stepped in at 
the University of Michigan several years ago and there has not 
been a complaint out there.
    He has done a terrific job at bringing excellence back on 
the athletic field, but also the desire on academics as well.
    And he record in the private sector and now at the 
prestigious University of Michigan, is unparalleled. And even 
though he is in this spot, as President of the USOC, almost by 
default, I guess you could say.
    This was not something that he was looking forward to. But 
he has spent an enormous amount of time. He has the respect of 
the committee that is there and certainly of me and so many 
different members.
    We welcome you and your testimony and look forward to 
working with you in the years ahead. Go blue.
    Mr. Stearns. I thank my colleague. The gentlelady from 
Wyoming.
    Ms. Cubin. Is this on? It is really my privilege to 
introduce a member of today's panel who hails from Star Valley, 
Wyoming.
    His run to, in 2000, to the Olympic gold, took him to a 
match with one of the, a man who some people consider one of 
the greatest athletes of our time in the heavyweight greco-
roman wrestling event.
    And Rulon, in an upset, upsetting to everyone on the 
Russian side, beat him, became a gold medal winner and 
certainly we are proud of him for that.
    Some, as I said, some people call it an upset, but I call 
it hard work, dedication and a never say die attitude that 
Rulon has and that he projects every place he goes.
    I want to tell you a little bit about him. I know him 
personally and Rulon was offered a lot of money after he won 
that to go into the WWF or WWE or whatever those things are 
that none of us watch.
    And a lot of money, more money than I have got. And he 
turned it down. And he said, you know, Barbara, he said, what 
good is that much money if I go home to Star Valley and I can't 
look anybody in the eye.
    And that is the kind of man that he is. And I am very proud 
to introduce our gold medalist winner, Rulon Gardner.
    Mr. Terry. Well the gentle lady yield for a minute. Mr. 
Gardner, will you state for the record where you went to 
college?
    Mr. Gardner. Well, first I started with Junior College in 
Idaho, and then of course big red, University of Nebraska.
    Mr. Terry. Thank you.
    Ms. Cubin. I left that out just so we could do that.
    Mr. Stearns. I thank my colleagues.
    I welcome all the panelists, and Mr. Martin, we will let 
you start.

   STATEMENTS OF WILLIAM C. MARTIN, ACTING PRESIDENT, UNITED 
STATES OLYMPIC COMMITTEE, NATIONAL HEADQUARTERS; RACHEL GODINO, 
   CHAIR, ATHLETES' ADVISORY COUNCIL, UNITED STATES OLYMPIC 
COMMITTEE, NATIONAL HEADQUARTERS; HARVEY W. SCHILLER, PRESIDENT 
    AND CHIEF EXECUTIVE OFFICER, ASSANTE US; ROBERT MARBUT, 
  CHAIRMAN, NATIONAL GOVERNING BODIES' COUNCIL, UNITED STATES 
 OLYMPIC COMMITTEE, NATIONAL HEADQUARTERS; JAMES P. MCCARTHY, 
    JR., MEMBER, BOARD OF DIRECTORS, UNITED STATES OLYMPIC 
   COMMITTEE, NATIONAL HEADQUARTERS; AND RULON GARDNER, 2000 
     GRECO-ROMAN WRESTLING CHAMPION, UNITED STATES OLYMPIC 
                COMMITTEE, NATIONAL HEADQUARTERS

    Mr. Martin. Good morning and thank you Mr. Chairman, and 
Congressman Upton, thank you for those very embarrassing 
comments you made about me. But I sure do appreciate it.
    Members of the committee, my name is Bill Martin. I am the 
Director of Athletics at the University of Michigan and I am 
serving as Acting President of the United States Olympic 
Committee.
    My experience at Michigan appears to be a parallel of what 
I am facing at the USOC as its volunteer leader. I came to the 
position as Athletic Director after spending my professional 
life in private business.
    The University's Athletic Program was in need of financial 
and organizational reform and I was asked to bring to that test 
the skills and experience that I gained from business.
    I am now being asked to participate in a similar process at 
the United States Olympic Committee. While the USOC has many 
challenges that certainly need to be addressed, at its core it 
is a magnificent organization who has dedicated, professional 
staff and committed volunteers performing in the highest 
tradition of the Olympic ideal.
    Look back just a year ago to Salt Lake City where American 
athletes captured an unprecedented 34 medals. Today, in spite 
of the unsettling events of the past 8 weeks, the important 
work of the USOC and our national governing bodies continues 
without disruption, in a world class manner befitting our 
athletes.
    They have not missed a single training session and access 
to critical support areas, such as coaching, sports science, 
sports medicine, training facilities and residence centers has 
not been impacted.
    In competitions across the spectrum of summer and winter 
sports, American athletes are distinguishing themselves, and in 
so doing raising hopes and expectations for similar successes 
in the Pan Am Games this summer, in the Olympic Games in Athens 
next year.
    Not allowing the recent events to become a distraction, is 
a true credit not only to the athletes but also to the 
dedicated men and women of the USOC and NGB who work to support 
them.
    The success of American athletes, however, does not permit 
us to escape the hard truth that events over the past few 
months have been an embarrassment to the organization, a 
disappointment to Congress and the American people who have 
entrusted to the USOC the privilege of conducting America's 
Olympic affairs.
    The good that has been and continues to be accomplished by 
the USOC has been obscured and attention has been shifted from 
America's athletes to our organizational gymnastics.
    Immediate attention and corrective action is required. Let 
me briefly outline what I see as the major challenges and what 
we are doing to correct them.
    Three inter-related areas lie at the base of the 
organizations recent difficulty. USOC management, structure and 
accountability.
    Almost equally important is the need to identify and agree 
on the USOC's mission, or more realistically agree on how to 
balance the many and often competing missions of the USOC as 
demanded by ourselves, our constituent organizations, Congress 
and the American people.
    The USOC is governed by a 122-person board of directors 
that meets but twice a year and a 23-person executive committee 
that sets policy, hires management and tends to the day-to-day 
affairs.
    The USOC board is headed by a volunteer President elected 
by the board. The responsibilities of the President are a bit 
unclear and seem to vary from incumbent to incumbent.
    But it is primarily a policy versus a management position. 
One function that is not the responsibility of the President, 
however, is the management of the permanent USOC professional 
staff, most of whom are located at USOC Headquarters in 
Colorado Springs.
    The staff and a budget of nearly $125 million a year are 
managed by a CEO who is hired and supervised by the executive 
committee.
    As you are probably aware, that position was recently 
vacated. Historically, there have been too often tensions 
between the President and the CEO.
    Congress established the USOC as a private entity that is 
to receive its funding, not from the Federal Treasury, but from 
private sources, such as payment for domestic broadcast rights, 
sponsorship revenues, licensing fees and so forth.
    Originally, the USOC's principle responsibility was to 
field teams for the Olympic and Pan Am Games, to which was 
added, by amendment in 1998, responsibility for the Paralympic 
Games, as well.
    But there are numerous other responsibilities enumerated in 
the Act, as well as that range from the obligation for 
coordinating and providing technical information on physical 
training to promoting grass-roots developments of amateur 
athletic programs.
    Frequently, these mandated responsibilities come into 
conflict with one another and certainly put them in competition 
for the USOC's fixed resources, which as just noted, must be 
generated privately.
    Since it is Congress to which we are ultimately 
accountable, the USOC needs Congress to tell us exactly what it 
considers are mission should or should not be.
    What it should not be, however, is really what brings us to 
this hearing today. By the USOC's conduct of this last year, it 
appears to be an organization in turmoil, although, as 
previously noted, its routine operations and athlete 
development and support programs are continuing uninterrupted.
    While I believe that the public picture is somewhat 
distorted, the perception is as serious an indictment as its 
reality, and I am embarrassed for the organization for which I 
have respect and affection.
    But I also recognize the gravity of both perception and 
reality and have committed to a program of remedial action that 
includes the following.
    First, a governance and ethics review task force has been 
appointed to study and make recommendations addressing a 
variety of issues ranging from ethical behavior to a new 
governance structure.
    Second, at the request of the Senate Commerce Committee, 
the USOC agreed to a proposal for a creation of an independent 
council, that the USOC will fund, of distinguished Americans 
who will examine all aspects of the USOC's operation and 
structure and submit a report containing recommendations for 
remedial action to the appropriate committees of the House and 
Senate, as well as the USOC.
    And third, the USOC has received and will accept the most 
generous offer from long-time Olympic supporter, David 
D'Alessandro, CEO of Olympic sponsor, John Hancock, for the 
conduct by a recognized national accounting firm of a 
comprehensive audit of the USOC's accounting and business 
practices.
    I and my colleagues are embarrassed that there is even a 
question about the adequacy of the USOC's ethical standards and 
reporting practices, because this organization, more than any 
other, not only should stand upon the foundation of the highest 
ethical principles, but should serve as an example of integrity 
to all Americans, particularly the young.
    I hope and trust that you Members of Congress would join us 
in this restorative effort and suggest two areas where you can 
be of particular assistance.
    We need your help in defining and focusing the USOC's 
missions and responsibilities. We need clear and consistent 
guidance regarding what Congress expects the USOC to do, and 
how it expects us to do it.
    Second, we need Congress' help in developing and 
implementing an organizational plan that will convert the 
USOC's government apparatus into a more professional and 
streamlined body that can better serve America's Olympic 
athletes and America's Olympic interests.
    I thank you for your support and look forward to having you 
as an active partner as we jointly move forward to restore 
America's Olympic organization to its position of prominence 
and effectiveness that this Congress and the American people 
expect and deserve.
    [The prepared statement of William C. Martin follows.]

   Prepared Statement of William C. Martin, Acting President, United 
                        States Olympic Committee

    Good morning Mr. Chairman and members of the Subcommittee. My name 
is Bill Martin. I am the Director of Athletics at the University of 
Michigan and I am serving as the Acting President of the United States 
Olympic Committee.
    My experience at the University of Michigan appears to be a 
parallel of what I am facing at the USOC as its volunteer leader. To a 
certain degree I am serving in a volunteer capacity as the Michigan 
Athletic Director, inasmuch as I came to the position not in a 
continuation of a career in athletics, but after spending my 
professional life in private business. The University's athletic 
program was in need of financial and organizational reform and I was 
asked to bring to that task the skills and experience that I gained 
from business. I am now being asked to participate in a similar process 
at the United States Olympic Committee.
    I have only been a member of the executive leadership of the USOC 
for a few months. I was elected a Vice President last November and then 
succeeded to the Presidency on an acting basis five weeks ago. I have, 
however, been involved with the organization for many years because of 
my association with the Olympic sport of sailing, whose National 
Governing Body, a member organization of the USOC, is the U.S. Sailing 
Association. I have been involved with U.S. Sailing for over twenty 
years and served as its president. Consequently, I have both an 
outsider's as well as a new insider's view of the USOC and have some 
definite opinions about the USOC.
    While the USOC has many challenges that certainly need to be 
addressed, at its core it is a magnificent organization whose dedicated 
professional staff and committed volunteers are performing in the 
highest tradition of the Olympic ideal. Look back just a year ago to 
Salt Lake City where American athletes captured an unprecedented 
thirty-four medals. Today, despite the unsettling events of the past 
eight weeks, the important work of the United States Olympic Committee 
and our National Governing Bodies continues, without disruption, and in 
a world-class manner befitting our athletes. They have not missed a 
single training session, and access to critical support areas such as 
coaching, sports science, sports medicine, training facilities, and 
residence centers has not been impacted. In competitions across the 
spectrum of summer and winter sport, American athletes are 
distinguishing themselves and in so doing, raising hopes and 
expectations for similar successes in the Pan American Games this 
summer, and the Olympic Games in Athens next year. Not allowing the 
recent events to become a distraction is a true credit not only to the 
athletes, but also to the dedicated men and women of the USOC and NGB's 
who work to support them.
    The success of America's athletes, however, do not permit us to 
escape the hard truth that events over the last few months have been an 
embarrassment to the organization, and a disappointment to this 
Congress and the American people who have entrusted to the USOC the 
privilege of conducting America's Olympic affairs. The good that has 
been and continues to be accomplished by the USOC has been obscured, 
and attention has been shifted from America's athletes to our 
organizational gymnastics. Immediate attention and corrective action is 
required.
    Let me briefly outline what I see as the major challenges and what 
we are doing to correct them.
    Three interrelated areas lie at the base of the organization's 
current difficulty: USOC management, structure, and accountability. 
Almost equally important is the need to identify and agree on the 
USOC's mission, or, more realistically, agree on how to balance the 
many and often competing missions of the USOC as demanded by ourselves, 
our constituent organizations, Congress, and the American people.
    The USOC is governed by a 123-person board of directors that meets 
but twice a year. Meeting on a more frequent basis--every two months--
is a 23-member Executive Committee that sets policy, hires the 
executive leadership of the USOC, and attends to more immediate issues 
that cannot await semi-annual action by the full board.
    One Member of Congress rhetorically asked how, with governing 
entities of such an unwieldy size, the USOC ever accomplishes anything. 
The answer is that we do, but it is a struggle. But in addition to the 
size of these governing boards, challenges arise because of their 
composition. Unlike a typical corporate board of the type with which I 
am most familiar, the USOC governing boards are comprised almost 
exclusively of ``insiders,'' that is, people who represent USOC 
constituent organizations and often place priority on their narrow 
constituent interests. These are all fine people but one would expect a 
greater representation of independent board members with no association 
with the USOC and any branch of what we refer to as the ``Olympic 
Family.''
    The USOC Board of Directors is headed by a volunteer President 
elected by the Board, the office that I am filling on an interim basis. 
The responsibilities of the President are a bit unclear and seem to 
vary from incumbent to incumbent, but it is primarily a policy versus a 
management position, with additional responsibilities dealing with 
representation of the USOC internationally. One function that is 
definitely not the responsibility of the President, however, is the 
management of the permanent USOC professional staff, most of whom are 
located at USOC headquarters in Colorado Springs. The staff, and a 
budget of nearly $125 million a year, are managed by a Chief Executive 
Officer who is hired and supervised by the Executive Committee. As you 
are probably aware, that position was recently vacated. Historically, 
there have too often been tensions between the USOC's CEO and its 
President.
    Having a CEO accountable to a 23-person Executive Committee and a 
123-person Board, and to myriad other committees and constituencies, is 
an invitation either to chaos, or to no accountability at all, either 
of which can spell disaster for an organization. But this leads to the 
next question of the accountability of the USOC to Congress.
    The USOC is chartered by Congress through legislation enacted in 
1978, ``The Ted Stevens Olympic and Amateur Sports Act,'' that sets 
forth certain rights, privileges, and obligations of the organization. 
As the entity recognized by the International Olympic Committee as the 
National Olympic Committee for the United States, it is also subject to 
the same provisions of the Olympic Charter as are the 199 other 
National Olympic Committees for the countries each represents. Such 
provisions are far ranging, including, for example, the requirement 
that National Governing Bodies affiliated with sports on the program of 
the Olympic Games must constitute a voting majority on a National 
Olympic Committee's Board of Directors.
    Congress established the USOC as a private entity that is to 
receive its funding not from the federal treasury, but from private 
sources such as payments for domestic broadcast rights, and from 
sponsorship revenues, licensing fees, and individual contributions.
    Originally, the USOC's principal responsibility was to field teams 
for the Olympic and Pan American Games, to which was added by amendment 
in 1998 responsibility for the Paralympic Games as well. But there are 
numerous other responsibilities enumerated in the Act as well that 
range from the obligation for coordinating and providing technical 
information on physical training, to promoting grass-roots development 
of amateur athletic programs. Frequently these mandated 
responsibilities come into conflict with one another, and certainly put 
them in competition for the USOC's fixed resources which, as just 
noted, must be generated privately.
    All of this comes down to the question of just what Congress, to 
whom we are ultimately accountable, wants the USOC to do. 
Unfortunately, it seems that individual Members have differing views on 
what our mission should be as evidenced by a hearing conducted eight 
years ago in which we were heavily criticized for devoting too much 
attention to elite programs, and not enough to grass roots development. 
But in that same year legislation was introduced that would require us 
to undertake major new responsibilities for elite disabled athlete 
programs. However, there was no accompanying provision for financial 
assistance that would enable the USOC to perform this task. 
Consequently, to fulfill this new Congressional mandate the USOC would 
have had to divert resources from other areas, such as grass roots 
development.
    I realize that the matter of priorities is something with which you 
elected representatives have to deal every day, and if you choose a 
course contrary to your constituents' interests you may pay the price 
at the polling place the following November. It is somewhat the same 
for us, and we have nearly as many competing constituency groups as 
each of you. But I raise this matter merely to demonstrate that since 
it is this Congress to which we are ultimately accountable, the USOC 
needs Congress to tell us exactly what it considers our mission should 
or should not be.
    ``What it should not be,'' however, is really what brings us to 
this hearing today. By the USOC's conduct of this last year it appears 
to be an organization in turmoil although, as previously noted, its 
routine operations and athlete development and support programs are 
continuing uninterrupted. While I believe that the public picture is 
somewhat distorted, the perception is as serious an indictment as its 
reality, and I am embarrassed for the organization for which I have 
respect and affection. But I also recognize the gravity of both the 
perception and the reality and have committed to a program of remedial 
action that includes the following:

1. A Governance and Ethics Review Task Force has been appointed to 
        study and make recommendations addressing a variety of issues 
        ranging from ethical behavior to a new governance structure. 
        Many of the Task Force's recommendations can and will be 
        instituted administratively, others may require legislative 
        changes to the Amateur Sports Act, and still others will have 
        to await the recommendations of an independent review 
        commission that will be submitting its own report on or before 
        June 30th of this year.

2. At the request of the Senate Commerce Committee the USOC agreed to a 
        proposal for the creation of an independent panel, that the 
        USOC will fund, of distinguished Americans who will examine all 
        aspects of the USOC's operations and structure and submit a 
        report containing recommendations for remedial action to the 
        appropriate committees of the House and Senate, as well as to 
        the USOC. Because of its independent posture our interaction 
        with the panel will only be at their invitation, but I have 
        communicated the USOC's pledge to cooperate fully in whatever 
        way we are asked.

3. The USOC has received and will accept a most generous offer from 
        long-time Olympic supporter David D'Alessandro, CEO of Olympic 
        Sponsor John Hancock, for the conduct by a recognized national 
        accounting firm of a comprehensive audit of the USOC's 
        accounting and business practices.

    I and my colleagues are embarrassed that that there is even a 
question about the adequacy of the USOC's ethical standards and 
reporting practices because this organization, more than most any 
other, not only should stand upon the foundation of the highest ethical 
principles but should serve as an example of probity and integrity to 
all Americans, particularly the young. Newspaper accounts of recent 
days and months belie that notion but I still believe that the 
transgressions that besmirched the USOC's reputation were exceptions. 
Nevertheless, I and my colleagues are committed to doing all that we 
can to restore the USOC's reputation for integrity, and returning it to 
a position that is as deserving of respect and support as are the young 
men and women we have the honor to serve.
    I hope and trust that you Members of Congress will join us in this 
restorative effort, and suggest two areas where you can be of 
particular assistance:

1. We need your help in defining and focusing the USOC's mission and 
        responsibilities. As previously discussed, the Ted Stevens 
        Olympic and Amateur Sports Act sets forth a variety of areas 
        for which we are responsible but sets no priorities, and offers 
        no assistance for addressing them. We need clear and consistent 
        guidance regarding what Congress expects the USOC to do, and 
        how it expects us to do it.

2. We need Congress' help in developing and implementing an 
        organizational restructuring plan that will convert the USOC's 
        governance apparatus into a more professional and streamlined 
        body that can better serve America's Olympic athletes, and 
        Olympic interests. This will require some fundamental changes 
        that may be painful to some of the USOC's current leaders and 
        constituents, but with Congress' assistance and support the 
        overall Olympic Movement will ultimately be better for it.
    I thank you for your support, and look forward to having you as 
active partners as we jointly move forward to restore America's Olympic 
organization to the position of prominence and effectiveness that this 
Congress and the American people expect and deserve.

    Mr. Stearns. Mr. Martin, thank you. I just wanted to tell 
the panel, we have a, Mr. Ridge is giving a security briefing 
now, and most of the members went to that.
    I have decided to continue the hearing. I know many of you 
came from out of town and I want to get your opening statements 
and questions on record.
    Many of them probably will come back after noon, but I just 
want to alert that to you. So, and also I just remind all of 
you, our opening statements are generally 5 minutes.
    And so you will see that red light after 5 minutes, just 
for your information. And we welcome Ms. Godino.

                   STATEMENT OF RACHEL GODINO

    Ms. Godino. Thank you, Mr. Chairman, members of the 
subcommittee. Thank you for the opportunity to speak to you 
today about the Olympic movement in the United States and for 
your interest in this topic, particularly as our Nation faces 
the prospect of war.
    My name is Rachel Mayer Godino. I am a 1992 Olympian in the 
sport of figure skating and I serve as the elected chairperson 
of the Athletes' Advisory Council, the AAC of the United States 
Olympic Committee, the USOC.
    The AAC is composed of Olympic, Pan American, and 
Paralympic athletes who are democratically elected by their 
peers to represent the interests and protect the rights of 
America's athletes.
    It is truly an honor to represent and lead such a 
distinguished group. I imagine the question of whether the 
USOC's organizational structure impedes its mission has been 
raised, in part, because of the conflicting images of the USOC.
    On the one hand, it is a troubled organization. There are 
the recent ethical issues, questions about financial reporting 
and the revolving door in the positions of leadership at the 
USOC.
    On the other hand, are America's athletes. They have 
performed phenomenally, winning 97 medals in Sidney, 34 medals 
in Salt Lake City, and they have continued to be extremely 
successful in the 13 months since Salt Lake.
    Great athletic performance and dysfunctional bureaucracy. 
Which one of these is the true reflection of the USOC. The 
answer is both, today.
    The USOC is doing some things right. First, the USOC 
continues to help American athletes achieve their Olympic 
dreams.
    Second, the USOC has improved its ability and the ability 
of each national governing body to target dollars and resources 
where they will most impact athletic performance.
    The positive results of that are being seen on the field of 
play. Third, the USOC is protecting athletes' rights. Part of 
the genesis of the 1978 Amateur Sports Act was the lack of 
protection for athletes' rights.
    The processes and principles incorporated into the USOC 
constitution as a result of that 1978 Act, have been used and 
tested repeatedly since their inception.
    They have proved to be so successful, that consideration 
should be given to codifying these principles in the Ted 
Stevens Olympic and Amateur Sports Act.
    Last, athletes, defined in the Act as those who have 
competed in the Olympic, Pan American or Paralympic Games or 
the World Championships in the last 10 years, bring a unique 
voice and perspective to both USOC and the NGBs.
    And both NGBs and athletes, those who know and live sport, 
should continue to have a meaningful voice in the governance of 
the USOC, and continue to have some forum for debate, such as 
that provided by the AAC today.
    The USOC can also be improved in many ways. First, the USOC 
faces the challenges of fulfilling many diverse purposes and 
serving many stakeholders identified in the Act and in the USOC 
organic documents, which limited resources.
    Many people have described the USOC as trying to be all 
things to all people. But given limited resources, choices must 
be made. The USOC cannot be all things to all people.
    Is the primary goal to win the medal count at the Olympic 
Games? What about the Paralympic and the Pan Am Games? What 
about promoting sport for all?
    To date, neither the USOC nor Congress has effectively 
answered these fundamental questions. An analogy can be made to 
an athlete training.
    The elite athlete has one ultimate goal, to win an Olympic 
medal. In order to meet that goal, the athlete must make 
choices. Delaying education and job opportunities, moving away 
from family and friends, all to attain the ultimate goal.
    The choices are difficult, but they must be made. The USOC 
today lacks this laser focus and the political will to make 
difficult decisions.
    Furthermore, all of the groups represented on the board of 
directors are there because they are identified as having a 
stake in the Olympic movement.
    But the lack of clear priorities leads to an ineffective 
decisionmaking process and fights over limited resources. I am 
sure that all of you can relate to the frustrations and 
inefficiencies of resources being doled out based on personal 
agendas, rather than principle decisionmaking.
    Overall, the USOC structure should promote operating in the 
best interest of the organization, rather than in the interest 
of a particular member or group.
    And going forward, a distinction must be made between 
representation for purposes of input, and representation for 
purposes of decisionmaking. Second, the rules and 
responsibilities of the staff, vis-a-vis the volunteers, must 
be defined and implemented.
    Third, similar to the USOC, the structure of NGBs can be 
made more efficient and streamlined. If economies and scales 
can be realized with the NGBs, additional resources can be 
directed to athletic performance.
    Fourth, even with a perfect organizational structure, 
leadership is about people. Selecting the right people for the 
leadership positions is critical for future success.
    Fifth, a system of accountability should be implemented. 
Board review processes and increased transparency are a place 
to start.
    And last, as noted earlier, the USOC is one of the only 
countries in the world that does not receive direct government 
funding.
    Instead, the USOC relies on corporate sponsors, television 
and private donors. These dollars are largely contributed so 
that companies and people can be associated with the Olympics 
and Olympic athletes.
    However, the dollars raised must fulfill many objectives 
beyond helping U.S. Olympic athletes. The revenue models should 
be examined, particularly with respect to fulfillment of 
objectives outside of helping U.S. Olympic athletes achieve 
sustained competitive excellence.
    So in sum, does the USOC's organizational structure impedes 
its mission? The short answer is yes. The recent attention has 
potentially, has provided a potentially powerful and positive 
impact, forcing the organization to make change.
    I am confident that the ongoing reform process, through the 
internal USOC commission and through the commission appointed 
at the direction of the Senate Commerce Committee, will create 
a USOC that is capable of enabling American athletes to reach 
their full potential.
    U.S. Olympic movement and its underlying ideas are 
resilient. Our athletes, the very reason the USOC exists, are 
strong and performing well.
    Setting new records on the field of play and continually 
striving to make Americans proud. Not only by their athletic 
excellence, but also by conducting themselves with honor and 
integrity.
    America's athletes continue to take pride in their efforts 
and we hope the American public will, as well. Thank you.
    [The prepared statement of Rachel Godino follows:]

               Prepared Statement of Rachel Mayer Godino

    Chairman Stearns and members of the Subcommittee on Commerce, 
Trade, and Consumer Protection: Thank you for the opportunity to speak 
to you today about the Olympic Movement in the United States, and for 
your interest in this topic. My name is Rachel Mayer Godino. I am a 
1992 Olympian in the sport of Figure Skating, and serve as the elected 
chairperson of the Athletes' Advisory Council (AAC) of the United 
States Olympic Committee (USOC). The AAC is composed of Olympic, Pan 
American, and Paralympic athletes elected by their peers to represent 
the interests, and protect the rights of America's athletes. It is 
truly an honor to represent and lead such a distinguished group of 
dedicated and accomplished athletes.
    My testimony is based on my years as an athlete, my experience as 
an Olympian, and my service on the USOC Board of Directors, Executive 
Committee, and the AAC.
    I imagine that the issue of whether the U.S. Olympic Committee's 
Organizational Structure Impedes its Mission has been raised because of 
the conflicting messages of the USOC brought to light in recent months. 
On the one hand, is an organization that seems unable to manage itself, 
illustrated by the recent ethical issues, questions about financial 
reporting and effectiveness, and the revolving door in the positions of 
USOC leadership. On the other hand, are America's athletes. They have 
performed phenomenally winning 97 medals at the 2000 Summer Olympic 
Games in Sydney and 34 medals at the 2002 Winter Games in Salt Lake 
City. America's athletes have been and continue to be highly successful 
on the field of play in the 13 months since Salt Lake despite the 
recent turmoil within the USOC. Great athletic performances and 
dysfunctional bureaucracy--which is the true reflection of the USOC? 
The answer, at this time, is both.
    I will address what I believe the USOC is doing well and where it 
can be improved. Like many other individuals committed to making the 
USOC the best National Olympic Committee in the world, I believe that 
recent events should be viewed as an opportunity to make difficult but 
necessary changes to the USOC. The unique circumstances we are 
presented with today make change possible in a way that it has never 
been before.

               WHAT IS THE USOC'S MISSION AND STRUCTURE?

    A bit of background is necessary to delve into this topic. The 
mission of the USOC as stated in Article II of the USOC Constitution is 
to ``Lead the world's best National Olympic Committee: Help U.S. 
Olympic athletes achieve sustained competitive excellence while 
inspiring all Americans and preserving the Olympic ideal.'' Section 2 
of Article II says that the ``USOC shall fulfill its mission on a basis 
consistent with Section 220503 of the Ted Stevens Olympic and Amateur 
Sports Act (``the Act'') which sets forth the purposes of the USOC.'' 
The Act identifies thirteen purposes that range from obtaining the most 
competent representation in the Olympic, Pan American, and Paralympic 
Games, to the expansive goal of promoting and encouraging physical 
fitness and public participation in amateur athletic activities. In 
sum, the USOC has a broad mission and multiple specific objectives.
    The organizational structure of the USOC is a complex mosaic. There 
are multiple constituent groups of the organization, several of which 
require some detailed explanation. The Board of Directors and the 
Executive Committee are the two bodies empowered with decision-making 
authority; the National Governing Bodies (NGB) Council and the AAC, are 
the two constituent groups codified in the 1998 Amendments to the Act. 
Each of these entities plays an important role in the current 
organizational structure of the USOC.
    The 120+ member Board of Directors is composed of one 
representative from each of the 45 NGBs for Olympic and Pan American 
sports, 25 elite athletes elected by their peers, 4 representatives 
from the Armed Forces, 17 representatives from Community and Education 
Based member groups such as the NCAA and YMCA, 8 members from the 
``public sector'', 5 Vice Presidents, 5 past presidents, 3 U.S. members 
of the International Olympic Committee, and more. Suffice it to say 
that the Board is large, diverse and not particularly agile. According 
to the USOC Constitution, the Board of Directors has ``ultimate 
authority over the business, policies, affairs, and activities of the 
USOC . . .'' (Article XII USOC Constitution). However, the sheer size 
of the Board makes the exercise of its written authority virtually 
impossible.
    The USOC Executive Committee is comprised of 20 members who also 
reflect the diverse constituencies of the USOC. Though smaller than the 
Board, the Executive Committee also faces decision-making challenges 
for broader structural reasons described later in this testimony. The 
Executive Committee is charged with establishing policies and 
overseeing the conduct of the business and affairs of the USOC, and is 
subject to direction by the Board of Directors.
    The NGB Council consists of one representative from each of the 45 
Olympic and Pan American sports. Each NGB determines its own method of 
appointment or election of one representative to this body. In addition 
to serving as members of the NGB Council, each of these representatives 
also serves on the Board of Directors.
    The AAC, the group for which I serve as Chairperson, is comprised 
of one democratically elected athlete representative from each Olympic 
and Pan American sport. The athletes in each sport who represented the 
U.S. at the Olympic and/or Pan American Games or World Championships in 
the last ten years elect one representative to the AAC. In other words, 
those that have trained and competed together for years, elect one of 
their peers to serve as their athlete representative. The AAC also has 
two Paralympic athlete representatives--one from summer sports and one 
from winter sports. I will provide additional detail on the AAC later 
in this testimony. The AAC and the NGB Council are both advisory in 
nature.
    In order to have a complete sense of the parameters within which 
the USOC operates and how it functions, it is also important to realize 
that the USOC is unlike other large non-profit organizations in its 
revenue model. Only a small portion of USOC revenue comes from 
fundraising and individual donors. Instead, the USOC generates the most 
significant portion of its revenue from television rights and corporate 
sponsors who pay for the use of the Olympic rings. Some of these 
sponsors are domestic; some sponsor the Olympic movement worldwide 
through the International Olympic Committee. This revenue model is more 
similar to a for-profit corporation than a non-profit. The USOC is also 
different from other National Olympic Committees, most of which receive 
substantial funding from their respective governments, while the USOC 
relies on sponsors and the American public for its funding.
    When the underlying structure outlined above is combined with 
limited resources to meet multiple purposes of diverse constituencies, 
the result is a unique set of challenges for the USOC.

                     WHAT IS THE USOC DOING RIGHT?

    First, the USOC is helping American athletes achieve their Olympic 
dreams. Americans should be proud to know that the talented and hard-
working individuals who are America's Olympians and Olympic hopefuls 
continue to perform exceptionally well. Johnny Spillane recently won 
the gold medal in Nordic Combined at the World Championships in Italy, 
becoming the first American ever to claim top honors in this event in 
World or Olympic competition. Keeth Smart is now ranked number one in 
the Fencing Men's Sabre world standings, the highest ranking ever 
attained by a U.S. fencer. Weightlifter Shane Hamman (an AAC member) 
thrilled the crowd at the Titan Games in San Jose, California, with a 
lift of more than 500 pounds. Sarah Hughes, Michelle Kwan, and Sasha 
Cohen stand a good chance of sweeping the medals at the World Figure 
Skating Championships here in Washington D.C. next week. These 
individuals and hundreds of others like them are the reason that we 
must find a way to resolve the organizational challenges facing the 
USOC.
    Second, the USOC continues to develop its relationship and 
partnership with NGBs. Over the last few years, despite challenges, the 
USOC has improved its ability, and the ability of each NGB, to target 
dollars and resources where they will most impact athletic performance. 
The results are being seen in the great successes on the field of play, 
as described above.
    Third, the USOC is protecting athletes' rights. Part of the genesis 
of the 1978 Amateur Sports Act was the lack of protection for athletes' 
rights. The USOC, with Congress' help, has been helping to protect 
athletes' rights since then. Article IX of the USOC Constitution 
states: ``No member of the USOC may deny or threaten to deny any 
amateur athletes the opportunity to participate in the Olympic Games, 
the Pan American Games, the Paralympic Games, a World Championship 
competition, or other such protected competition . . .'' (Article IX, 
USOC Constitution). A process to resolve disputes and to expeditiously 
remedy a situation is also defined. Problems will always arise, and 
there will always be attempts to suppress athletes' rights. As a 
result, these processes and principles have been used and tested 
repeatedly since their inception in the late seventies. They have 
proved to be so successful that consideration should be given to 
codifying these principles in the Act.
    Furthermore, the 1998 amendments to the Act created the role of the 
Athlete Ombudsman. The Ombudsman provides ``independent advice to 
athletes at no cost about the applicable provisions . . .'' of the 
USOC, NGBs, and Paralympic sports organizations, and assists in 
mediating disputes. The Athlete Ombudsman position has been highly 
effective in resolving disputes avoiding costly legal proceedings for 
NGBs, the USOC, and athletes.
    Fourth, in whatever new structure for the USOC emerges, NGBs and 
active athletes must continue to have a forum for debate such as that 
provided by the AAC today. Elected athletes bring their individual 
sport experiences to the AAC for the good of all athletes. This 
structure makes it significantly less likely that personal agendas will 
rule the day. In fact, the AAC has often been called the ``conscience'' 
of the USOC. The AAC also serves as a source of leadership development 
for the organization. Athletes who might not otherwise be involved in 
the movement have a place at the AAC. As noted earlier, the Act 
provides that athletes who have competed at the World, Pan American, 
Paralympic, or Olympic level in the last 10 years qualify to serve as 
athlete representatives. Furthermore, athlete representatives must 
constitute twenty percent of all USOC and NGB committees. Similar to 
athletes' rights, these fundamental principles of athlete 
representation have been tested. If these principles were not protected 
in the Act, they most certainly would have been changed by the various 
agendas over the years. I submit today that these tenets should 
continue to be protected. Athletes, as defined in the Act, bring a 
unique voice and perspective to NGBs and the USOC. NGBs must also 
continue to have a meaningful voice in the governance of the USOC.
    Lastly, the USOC recognizes the need for change. This may be one of 
the few topics on which you would get unanimous agreement from all 
parts of the USOC, and perhaps even from the American public, sponsors, 
and Congress. Unfortunately, the knowledge that change is necessary is 
not new. The USOC has recognized the need for change in the past and as 
a result, has held round table discussions, appointed task forces, 
commissioned studies, and more. Precisely how the organization should 
be changed has been, and continues to be, the subject of significant 
debate. However, the first important hurdle, accepting that change is 
necessary, has been cleared.

                     HOW CAN THE USOC BE IMPROVED?

    Given the recognition that the structure of the USOC can be 
improved, below are several specific areas of potential improvement.
    First, the USOC faces the challenge of fulfilling many diverse 
purposes and serving the many stakeholders identified in the Act and in 
the USOC organic documents, with limited resources. Many people have 
described the USOC as trying to ``be all things to all people''. But, 
given that limited resources are a fact of life, choices must be made--
the USOC cannot be all things to all people. Is our primary goal to win 
the medal count at the Olympic Games? Should we put a stronger emphasis 
on high profile sports such as Skiing and Swimming? What about less 
well known Olympic sports like Modern Pentathlon and Archery? Where do 
Paralympic and Pan American athletes fall into the list of priorities? 
What about the purpose of promoting sport for all? Where one comes out 
on these questions has a significant impact on allocation of resources 
(including financial resources, facilities, staff time, etc). Yet, to 
date, neither the USOC nor Congress has effectively answered these 
fundamental questions.
    An analogy can be made to an athlete training. The elite athlete 
has one ultimate goal--to win an Olympic medal. In order to meet that 
goal, the athlete must make choices. For example, the athlete may 
forego education and job opportunities, move away from family and 
friends, and miss important family events, all for the purpose of 
attaining the ultimate goal. These choices are difficult, but must be 
made. The USOC today lacks this laser focus and the political will to 
make difficult decisions.
    Two related issues arise from the lack of clear purpose and 
priority: an inefficient, and perhaps ineffective, decision-making 
process, and the resulting bitter fights over limited resources. While 
the USOC may have expansive and even lofty goals, and serve broad 
constituent groups, a distinction must be made between representation 
for purposes of input, and representation for purposes of decision-
making. All of groups represented on the Board are there because they 
are identified as having a ``stake'' in the Olympic movement. But, when 
everyone gets to decide what to do with the resources, and there is an 
absence of clearly defined and agreed upon priorities, a culture of 
indecision is fostered. Decisions get ``undone'' by unspoken factors 
and inaction. Volunteers trying to serve their constituents undermine 
difficult decisions made by staff. In short, decisions are driven by 
self-interest. I am sure that all of you can relate to the frustrations 
and inefficiencies of resources being doled out based on personal 
agendas rather than principled decision-making. While the USOC has made 
some improvements in this area, the organization, and the athletes it 
serves, would benefit greatly from both clear priorities and a 
streamlined and effective decision-making process. Any decision that 
has staying power--whether right or wrong--would be better than the 
indecision and lack of clarity that we face today. Overall, the USOC's 
organizational structure should promote operating in the interest of 
the organization rather than the interests of a particular member or 
constituency.
    Second, the roles and responsibilities of the staff vis a vis the 
volunteers must be defined, and volunteers and staff must actually act 
in accordance with the defined roles and responsibilities. As you may 
know, in 2000 the USOC amended the Constitution and Bylaws to transfer 
many responsibilities from the volunteers to the professional staff as 
a result of the 1999 McKinsey & Co. study. However, I believe that the 
USOC failed to implement critical changes to the culture and everyday 
practice to complete the transformation envisioned. Today, there is 
still no broad consensus as to who has the responsibility or authority 
to do what in certain key areas such as international relations. 
Strategies to ensure that the roles and responsibilities of volunteers 
and staff are both defined and practiced must be part of the 
recommendations for improvement.
    Third, similar to the USOC, the structure of NGBs can be more 
efficient and streamlined so they can better fulfill their 
responsibilities. Approximately half of the NGBs have hired a new 
Executive Director in the last two years, and some have had multiple 
Executive Directors in the last two years. This instability is less 
than optimal. Furthermore, it's possible that economies of scale can be 
gained particularly among small NGBs. If economies of scale can be 
realized, additional resources can be directed to athletes on the field 
of play.
    Fourth, even with a perfect organizational structure, leadership is 
about people. Selecting the ``right'' people for the leadership 
positions is critical to future success. Of course, given the current 
structure, the lack of clear purpose and prioritization of goals, and 
the lack of definition in roles and responsibilities, the selection 
process is difficult and easily manipulated for self-interest. The USOC 
must first have clarity of purpose, roles, and responsibilities. The 
organization will then be in a position to recruit and retain the 
``right'' leaders that are so critical for future success.
    Fifth, a system for accountability to sponsors, Congress, the 
American public, and athletes should be implemented. Therefore, built 
into recommendations for improvement should be a review process that 
provides for thoughtful and evolutionary change on a regular basis. One 
way to ensure internal accountability is to implement a review process 
for the Board of Directors. Such a review process could include a full 
Board evaluation, individual self-assessments for each director, and 
peer reviews of each other. External accountability can be improved 
through increased transparency.
    Sixth, as I noted earlier, the revenue model of the USOC is unique. 
The USOC is one of the only countries in the world that does not 
receive government funding. While U.S. athletes compete against 
countries like Australia and China who get significant direct financial 
support from their Ministries of Sport, the USOC relies on corporate 
sponsors, television, and private donors for funding. These dollars are 
largely contributed so that companies and people can be associated with 
the Olympics and Olympic athletes. However, the dollars raised must 
fulfill many objectives beyond helping U.S. Olympic athletes achieve 
sustained competitive excellence. The revenue model should be examined 
particularly with respect to fulfillment of objectives outside of 
helping U.S. Olympic athletes achieve sustained competitive excellence.
    Lastly, the USOC faces a changing and increasingly competitive 
landscape. The level of athletic performance worldwide continues to 
improve making it more and more difficult for the U.S. to achieve 
sustained competitive excellence. The needs of athletes are also 
changing. For example, the average American athlete competing at an 
elite level is older today than a decade ago. In 2004 in Athens, the 
average female athlete will be 29, and the average male athlete will be 
30. It is more and more common for athletes to delay education and job 
opportunities until later in life. Part of this is because there are 
more opportunities to make a living in sport, but in many cases, it is 
just about pursuing the love of the game to its ultimate level at the 
Olympic, Pan-Am, or Paralympic Games. Without focus and attention on 
the changing competitive landscape and needs of our athletes, the USOC 
will be adrift on a course to mediocrity. However, by addressing the 
organizational challenges facing the USOC, and getting back to the 
business of sport, we can chart a course to excellence. We must do so 
for the sake of America's athletes.

                                CLOSING

    Does the USOC's organizational structure impede its mission? The 
short answer is ``yes''. The recent attention, though negative, has a 
potentially very powerful and positive impact, forcing the organization 
to make change.
    To that end, the independent Commission appointed at the direction 
of the U.S. Senate Committee on Commerce, Science and Transportation, 
and the USOC's internal Ethics and Governance Commission have begun to 
address and will recommend changes to the organizational structure. I 
am confident that these ongoing reform processes will create a United 
States Olympic Committee that is capable of enabling American athletes 
to reach their full potential. Based on the scope of change being 
considered and discussed here today, in the media, and in the USOC 
family, I believe that changes to the Act will be necessary, and that 
many of you will therefore be directly involved in improving the USOC. 
Furthermore, I am certain that all of you as members of Congress will 
be lobbied regarding the structure of the USOC. My greatest hope is 
that principled decision-making rather than self-interest will rule the 
day.
    The U.S. Olympic Movement and its underlying ideals are resilient. 
Our athletes--the very reason the USOC exists--are strong and 
performing well, setting new records on the field of play and 
continually striving to make America proud, not only by their athletic 
excellence, but also by conducting themselves with honor and integrity. 
America's athletes continue to take pride in their efforts, and we hope 
that the American public will as well.

    Mr. Stearns. Thank you.
    Dr. Schiller.

              STATEMENT OF HARVEY W. SCHILLER, JR.

    Mr. Schiller. Thank you. I do want to mention that I 
support the comments made about Bill Martin. Not just because I 
have two degrees from Ann Arbor, but I think he is--and for 
your attention, Congressman Stearns, I was the Commissioner of 
the Southeastern Conference. So, I will say something good 
about Florida, too.
    And there are probably a few others. I was the head of 
World Championship Wrestling, and Rulon, you did the right 
thing by turning them down.
    Chairman Stearns, distinguished members of the U.S. House 
Committee on Energy and Commerce. Ladies and gentlemen, thank 
you for the opportunity to talk to you today.
    I have previously served as Executive Director of the U.S. 
Olympic Committee. That term is called Chief Executive Officer. 
And also I was a volunteer member of the USOC Board of 
Directors and a member of their Executive Committee as a 
volunteer.
    I also now serve as a member of the five-member independent 
committee that was discussed by Senator Campbell. And I also 
serve as chair of the Management Committee of New York City's 
bid for the 2012 games.
    Well, the views I express today are my own and they are 
based upon my service since the end of my tenure in 1994. It is 
safe to say that in all my years of service to sport in 
America, from the school and college world, to every amateur 
and professional level, I have never seen a more destructive 
collapse of an organization's image, reputation or 
effectiveness as we have seen with the U.S. Olympic Committee.
    Perhaps it is because it is an organization of diverse 
membership. Sports like basketball, archery, swimming and 
yachting, have very little in common with each other.
    Both in the way their athletes are trained, selected and 
evolve, as well as their financial resources. And the question 
really is, why should the Congress today really pay attention 
to this, especially while we are on the brink of war?
    Now why is it that this is so important for the American 
public? It is because I believe that in peace time the U.S. 
Olympic team has rallied the American public as none other.
    And I think that is an important statement to make to every 
individual that is in this country. The performance of Jesse 
Owens. We have said the 1980 Olympic Team, ice skating team, 
the, all the others that have been before them have meant so 
much to the American public.
    Last night I had the unique opportunity of appearing at the 
Sullivan Award in New York City. Sarah Hughes won the award, 
but this award previously was given for the top amateur athlete 
in the United States.
    Even that is confused in today's terms. The difference 
between amateur and professional and how that goes forward. And 
I am sure that will be a lot of attention as we move forward.
    I think that there are some very, very specific things I 
would like to recommend. First, the role and purpose of the 
organization must be defined.
    The USOC presently serves more masters than it possibly 
can. We have to reorganize the existing executive committee as 
the main leadership committee of the organization.
    I believe that a majority of this committee must be 
independent. Next, I believe that we should reduce the current 
board of directors in size. We have to change its 
responsibilities, its voting power of the current members.
    The USOC's nominating committee should be made up of 
independent directors. We should reestablish the positions of 
first, second and third vice presidents, to eliminate a lot of 
the political in-fighting that has happened in the past.
    We must have continued oversight, both in accountability 
and the way money is spent for the organization. And there is 
something else I would like add as a final note.
    We are about the only country in the Olympic movement that 
does not have a Minister of Sport that works directly with 
government.
    And it may be time to think about some way of coordinating 
all of the interests among all of the government entities as we 
move forward.
    And that is just a suggestion, again, based upon the 
effectiveness of many, many other countries in dealing with 
their Olympic movement.
    There are certainly many other changes that are probably 
worthwhile discussing. I believe that the athletes of this 
country deserve the very best from the leadership.
    At the same time, I think we have to be careful. This 
organization can't fail. It cannot go out of business. We have 
to make sure, as it moves forward, that it does the right 
things.
    I also would like to add that New York is a candidate city 
for the games of 2012. It needs the support of a stable and 
successful United States Olympic Committee to have the chance 
of making this bid a reality. Thank you very much.
    [The prepared statement of Harvey W. Schiller, Jr. 
follows:]
    Prepared Statement of Harvey W. Schiller, President, Assante US
    Chairman Stearns, distinguished members of the U.S. House Committee 
on Energy and Commerce, ladies and gentlemen, thank you for the 
opportunity to appear today to discuss the United States Olympic 
Committee (USOC), its history and organizational structure. My name is 
Harvey W. Schiller and I currently serve as President of Assante US, a 
financial services company and also as Chair of the Management 
Committee of NYC2012, the United States candidate city to host the 
Summer Olympic Games in the year 2012. I have served as Executive 
Director (the position has since been renamed ``Chief Executive 
Officer'') of the USOC, as an officer of a National Governing Body 
(NGB) of Olympic Sport, as well as a volunteer member of the USOC's 
Board of Directors and Executive Committee.
    First, I would like to recognize the many contributions made by 
members of Congress, as well as by local and state governments in 
support of the Olympic Movement, its athletes, and the dreams and 
aspirations of so many Americans. From providing the services of the 
Armed Forces for security, to creating coin programs to help finance 
the training of athletes, the support of each of you and our government 
has helped enable our Olympians to accomplish what otherwise would have 
been an impossibility. I would also like to recognize the members of 
your committee, Congressman Steve Buyer, a fellow graduate of The 
Citadel and Congresswoman Heather Wilson, a graduate of The United 
States Air Force Academy and a former student during my tenure at the 
Academy.
    The views I express today are my own, based on my Olympic service 
and observations of the USOC since the end of my tenure as Executive 
Director in 1994. The performance of our athletes, coaches, and 
officials in past Olympic and Pan American competitions has been 
extraordinary. The accomplishments of our disabled athletes in 
Paralympic and world championship competitions have been second to 
none. The U.S. Olympic Committee itself has done many things well. It 
has protected athletes' rights to compete; established comprehensive 
drug-testing protocol; provided expert logistical support for Olympic, 
Pan American, Paralympic and World University Games; established 
national training centers for athletes and accomplished a long list of 
other successes. However, in all my years of service to sport in 
American, from the school and college world to every amateur and 
professional level, I have never seen a more destructive collapse of an 
organization's image, reputation, or effectiveness.
    The USOC is an organization with a diverse membership, unique needs 
and limited resources. The constituent groups of the USOC range from 
National Governing Bodies of Olympic, Paralympic and Pan American sport 
to community-based organizations such as the Boys and Girls Club. 
Unfortunately, these diverse membership groups compete for the 
organization's limited funding, representation and recognition. The 
diversity of interests and oft self-serving needs among the members of 
the current Board of Directors indicates a need for structural change 
to insure the primary goal of the USOC as defined by the Olympic and 
Amateur Sports Act is met, namely: ``to promote and coordinate amateur 
athletic activity in the United States.'' The USOC is does not benefit 
from the collegiality usually seen in organizations such as the NCAA 
and other sports associations. The National Governing Body for a sport 
such as Archery has little in common with the NGB of Basketball. Boxing 
and Equestrian are dramatically different sports, not only on their 
fields of play, but in their social and economic compositions as well. 
While the Olympic Team may appear as an integrated unit during Opening 
Ceremonies, the National Governing Body for each of the sports 
represented on that team are far fields apart. Each one competes with 
the others for sponsorships, media coverage, and even athletes 
themselves. Add to this mix the desire for non-Olympic sports to be 
added to the Olympic program, the special challenges of Disabled Sports 
Organizations, the particular needs of the armed forces, community 
based and religious entities, school and college communities, and state 
organizations. Only then can you begin to understand what 
differentiates the USOC from other charitable organizations. In 
addition, the current size and structure of the various sub-committees 
and Board of Directors not only impedes its mission, it creates waste, 
ethical challenges, and loss of opportunity for America's youth.
    The future holds even more significant challenges for this 
country's Olympic Committee. Today, the USOC depends heavily on Olympic 
Games television and sponsorship revenues for a large percentage of its 
income. Not only will it be more difficult for the USOC to raise 
sponsorship dollars in this country's current economic climate, but the 
recent events have created an image of waste and inefficiency. Both of 
these factors will continue to reduce the pool of funds available to 
the USOC and its athletes. Additional stress is placed on the USOC's 
budget as it becomes more expensive to adequately fund sports teams and 
the organization's operating costs continue to rise. The current 
expense of operating the USOC is driven in part by the travel and 
meeting costs associated with volunteer committees, wasteful protocol, 
as well as by the costs of maintaining a large paid staff. Forbes 
magazine has identified the USOC as one of three non-profits that 
failed to meet its minimum standard for fund-raising efficiency and 
warned that the USOC's overhead is too high and it doesn't spend enough 
money on its programs. All of these factors demand careful 
consideration of developing a more streamlined and efficient structure 
of the USOC.
    There have been numerous attempts in the history of the USOC to 
improve the governance structure of the organization. During my tenure 
as Executive Director, the organization eliminated the House of 
Delegates, a cumbersome quadrennial meeting of over 600 individuals. We 
established a Code of Conduct for team members, increased involvement 
of athletes, and even created an independent Ethics Committee. In past 
years there have also been additional attempts to change the 
organization's constitution and operating procedures, including 
engaging independent entities, such as McKinsey and the Steinbrenner 
Commission, to study and make recommendations to the governance 
structure of the USOC. However, while many valid recommendations have 
been made, most have not been implemented by the USOC. There is no 
question that change must now occur.
    I do feel that although the USOC may need some repair of its 
current structure, the required changes may not be as dramatic as some 
would suggest. The interface of volunteers and paid staff is no 
different at the USOC than it is in thousands of other non-profit 
organizations across the nation. I personally served under three 
different USOC Presidents during my tenure at the USOC, witnessed 
numerous changes in the composition of the Executive Committee and saw 
an almost 75% change in the leadership of National Governing Bodies. I 
also found that the majority of individuals were fully dedicated to the 
success of the Olympic Movement. Most volunteers give much of 
themselves, their resources and their time to serve the needs of their 
respective organizations, the USOC and the Olympic Movement as a whole.
    However, the many accomplishments of the USOC and the athletes it 
supports seem to have been obscured in recent years by frequent changes 
of leadership and internal conflict. There have been significant 
cultural changes in the USOC since my tenure as Executive Director. The 
role of the elected president and the duties associated with the 
position have certainly changed since the days of General Douglas 
Macarthur and William Simon. Today, the president and other officers of 
the USOC are engaged in much unnecessary travel both domestically and 
internationally than is required. Defining the roles of both volunteers 
and staff will help eliminate extraneous expenditures of both time and 
financial resources. While there are certainly many changes that would 
help the organization move forward, no change will be effective without 
a sound governance structure that can support the appropriate 
individuals in leadership positions. The USOC must recruit, develop, 
and maintain quality leaders to be successful. Participation should not 
be based on the rewards of protocol or Olympic junkets. We all will 
need to work together to insure the best leaders are selected, 
supported, and retained, and that the focus of the organization remains 
on America's athletes. It will take time, money and strong leadership 
to implement the necessary changes.
    As a start, I believe the following proposals regarding the 
governance structure of the USOC should be both examined and 
considered:

<bullet> Define the role and purpose of the Organization. The USOC 
        presently serves more masters than it possibly can.
<bullet> Reorganize the existing Executive Committee, which would then 
        function as the principal governing body of the USOC. The new 
        Executive Committee would include the USOC President, IOC 
        members, athlete representatives, and independent members. 
        However, a majority of Executive Committee members would be 
        independent of the general USOC membership. The Executive 
        Committee would appoint a Chairperson from its independent 
        members and the CEO of the USOC would continue to be a member 
        of Executive Committee. The specific responsibilities of the 
        CEO and staff vis a vis the volunteer leadership would need to 
        be determined by the CEO and the Executive Committee.
<bullet> Reduce the current Board of Directors in size with changes in 
        responsibilities and voting power of the current members. The 
        role of the new Board of Directors would be shifted from acting 
        as the principal governing body within the organization to 
        becoming more of an advisory group to the reconstituted 
        Executive Committee. The members of the Board of Directors 
        should continue to represent the diverse interests of the 
        organization's constituent groups and should reflect the 
        objects and purposes of the U.S. Olympic Committee.
<bullet> Restructure the USOC's Nominating Committee, which is 
        currently appointed on a quadrennial basis to make 
        recommendations to the Board of Directors regarding the 
        officers and public sector members that the Board of Directors 
        will then elect. The Nominating Committee is currently 
        comprised of members representative of the USOC's various 
        constituent groups, each of which brings an inherent bias to 
        the process. The Conference Board Commission on Public Trust 
        and Private Enterprise has recommended that such nominating 
        committees of private corporations be comprised of individuals 
        outside the corporation and who would be more able to 
        objectively consider appropriate individuals for leadership 
        positions. The USOC would benefit from following this sound 
        practice.
<bullet> Reestablish the positions of First, Second and Third Vice 
        Presidents to allow for an orderly transition if the Office of 
        President should become vacant. This would help to eliminate 
        the political in-fighting that often occurs during this period 
        of change.
<bullet> Continued oversight of revenue and expenses to insure 
        accountability of the highest order.
    There are certainly many other changes that would help the USOC 
move forward and I only offer these recommendations as a start. The 
USOC and its members have been blessed with a multitude of individuals 
who have given much to the Olympic Movement. The athletes of this 
country deserve the very best from their leadership. In addition, 
America's great cities deserve the chance to be viable competitors in 
the contest to host future Olympic Games. New York is the candidate 
city of the United States for the Games of 2012, and it needs the 
support of a stable and successful United States Olympic Committee to 
have the chance of making its bid become a reality.
    Representative Stearns, I stand ready to help you and this 
Committee in any way possible to enable America's athletes, the Olympic 
Movement, the USOC and its members be the best that they can be. Thank 
you again.

    Mr. Stearns. Thank you, Dr. Schiller.
    Mr. Marbut.

                   STATEMENT OF ROBERT MARBUT

    Mr. Marbut. Good morning. My name is Robert Marbut, I come 
out of the sport of Pentathlon. I started as an athlete and 
moved over to the administration.
    I also serve as chair of the National Governing Body 
Council, and in that role I end up serving on the Executive 
Committee too.
    I think before I go into sort of what the future is, there 
are some common misconceptions about NGBs, National Governing 
Bodies. So, if you will, I will quickly go through those.
    The National Governing Bodies for each Olympic, Pan 
American and winter sport, there is a separate National 
Governing Body.
    They are sanctioned by the USOC. They are affiliated with 
the International Federation which represents, through the IOC, 
their separate 501(C)(3) or non-profit organization.
    The NGBs are really the workhorses of the USOC. We do the 
training, identification, recruiting, development, programming, 
et cetera, of the athletes.
    In many ways, the NGBs produce the athletes and the 
athletes in turn produce the success on the playing surface. 
They produce the performance results.
    As we look to--the sad thing of what has happened recently, 
is it has lost so much of what is good going on. What Rachel 
has talked about.
    Our athletic performance on the playing field is at an all-
time high. Jim's sport of skiing is having their best season 
ever, skiing and snowboarding.
    My sport of modern pentathlon, our men's team have come 
from nowhere to be No. 2. We have a husband and wife team who 
are likely to both win medals next year at the Olympics.
    So a lot of good things are happening. There is a great 
partnership between NGBs and the USOC. In particular, the games 
preparation division of sports performance. So a lot of good is 
happening.
    But there is a lot that needs to be improved. As we move 
forward, I think there are 12 critical success factors that we 
need to work on.
    First is leadership. Ultimately, this organization needs 
the right people in leadership. And if you don't have the right 
people, you have, you have a fundamental problem.
    No matter how good your structure is, if the people are 
wrong, it is not going to work. I think the nominating 
committee got it right a couple of years ago, but the politics 
of the board overrode the recommendation of the nominating 
committee.
    The second is we have extremely murky and turbid roles. We 
have layers and layers of role ambiguity between the CEO and 
the President, between the volunteer and the paid staff.
    And that needs to be cleared up. We also need to 
streamline. We are too complex, we are too convoluted. We have 
a 120 some odd board.
    Really that is a board of stakeholders. Then we have an 
executive committee of 20, and it is really serving as the 
functional board.
    And then the officer's work group is really then serving, 
filling the role of the executive committee. The clear thing, 
when we go to the restructuring, is we have to have an absolute 
clear mission first before you start deciding how to 
restructure.
    We have 13 objectives that we were given by Congress. We 
need some help in understanding which one is the most 
important, which one is the least. Which ones need to stay, 
which ones need to go.
    Beyond these three, and I will quickly go through these, 
there are some other critical success factors, I think, as we 
go forward.
    We need to have stable revenue sources. The NGBs, in 
particular, as it relates to coaches and staff. We need to have 
stable, adequate and predictable fund raising and revenue 
streams. It is absolutely critical.
    The fifth, is as we move forward I think we need to move to 
quad-base budgeting or 4-year budgeting. So much of what we do 
in the first year of a quad, is very different than a last year 
of a quad.
    Winter is different than summer. Pan Am is different than 
summer. So we need to look through that and I think moving to a 
4-year budgeting basis is important.
    The sixth is in the 1998 rewrite, we were given the new 
responsibility, the additional duty of developing elite 
Paralympians.
    But again, that came to us as an additional responsibility, 
but no extra funding came with it. It is analogous to military 
mission creep without increasing revenue streams.
    And we have had mission creep all through this. You know, 
from 1978 to, you know, at several different points in time.
    We need to have a clarification of responsibilities. And if 
we are going to take on additional responsibilities, I think 
some funding needs to be brought in with that.
    We need to have optimization through economies of scale. We 
need savings of NGBs at the USOC and how the NGBs and the USOC 
goes.
    We need to continue to promote the positive relationships 
between the Athletes' Advisory Council and the National 
Governing Body. The ninth is, as Harvey said, it is critical we 
bring the Olympics back to America, for all sorts of reasons.
    And we need to promote the USOC within the IOC structure to 
do that. Ten is the NGBs and the athletes are really the 
masters of success.
    We are the experts at the playing field and we need to 
maintain that role and function and voice and role. Eleventh, 
is as we go through this restructure I think we need to be 
mindful of the unintended consequences that happen often when 
you go through restructuring.
    We have to make this restructuring right. And finally, we 
need to start focusing on performance and not politics. And 
thank you very much for letting us all come today.
    [The prepared statement of Robert Marbut follows:]

  Prepared Statement of Robert Marbut, Chair, USOC National Governing 
                             Bodies Council

    Good morning Mr. Chairman and ladies and gentlemen of the 
Subcommittee. My name is Robert Marbut and I am Chair of the United 
States Olympic Committee's ``National Governing Bodies Council.'' I 
come from the sport of Modern Pentathlon, whose NGB I head as Executive 
Director. By dint of my chairship of the NGB Council I also serve on 
the USOC Executive Committee and have been an ex-officio member of the 
Officer's Workgroup.
    A ``National Governing Body,'' or ``NGB,'' is an autonomous 
organization responsible for all matters related to the governance, 
development, and conduct of an individual sport. There being only one 
National Governing Body for each sport, an NGB receives its recognition 
from the United States Olympic Committee after demonstrating that it is 
complying with numerous specific requirements enumerated in the Ted 
Stevens Olympic and Amateur Sports Act. Currently there are forty-five 
NGB's for sports on the program of the Olympic and/or Pan-American 
Games.
    The NGB's are the workhorse of the Olympic Movement, and we have a 
great deal of work ahead of us to prepare our athletes for the major 
international competitions for which Congress gave the USOC the 
responsibility for ``obtaining for the United States the most competent 
representation possible in each event of the Olympic Games the 
Paralympic Games, and the Pan American Games.'' These competitions are 
right on our doorstep. We are just 121 days away from Opening 
Ceremonies of the Pan American Games in Santo Domingo, and 513 days 
from Opening Ceremonies for the next Olympic Games in Athens. Upon 
their conclusion, just 548 days from now, the Athens Paralympic Games 
will be held, and 1,064 days from now, the next Olympic Winter Games 
will be held in Torino, Italy.
    For 47 of the 48 months between Olympic Games it is the NGB's that 
recruit the athletes and provide the training, coaching, and 
competition opportunities that help them achieve elite status. At the 
end of the process each NGB, utilizing criteria prescribed by its 
international federation, selects its athletes for the Olympic, 
Paralympic, or Pan American Games and hands them off to the USOC, which 
then takes the responsibility for entering, outfitting, and 
transporting them to the competition in question, and while there 
providing all the additional support designed to deliver them to the 
medal podium following their respective competitions.
    But I do not want to minimize the importance of the USOC's role in 
the development of the athletes. The USOC is the major and invaluable 
partner of each NGB, and its involvement in and support of all aspects 
of their operations and athlete programs is vital to their success. One 
of the most important contributions they make is financial, and without 
this USOC support many NGB's could not exist. But beyond the financial 
support are the myriad services the USOC provides ranging from access 
to world-class training centers, modern sports science and sports 
medicine programs, administrative assistance, logistical support, legal 
and financial guidance, and assistance with a multitude of tasks and 
programs that enable the NGB's to focus on their principal objective, 
developing world-class athletes.In recent days much has been written 
about certain USOC problems. While they may warrant public attention I 
regret that they have distracted from all of the positive 
accomplishments of the USOC and our NGB's, starting with unprecedented 
success at last year's Olympic Winter Games and continuing through the 
present in competition after competition and in sport after sport.
    The Sports Partnership group and the International Games 
Preparation divisions of the USOC have been doing an outstanding job in 
helping NGB's and athletes achieve maximum athletic performance. These 
groups within the USOC continue to provide invaluable resources to 
NGB's and athletes. I should note that one significant accomplishment 
occurred recently in my sport, Modern Pentathlon, where an American 
husband and wife couple, Vaho and Mary Beth Iagorashvili, individually 
had top finishes in the this season's World Cup. Both have the 
potential of making history at the Olympics by medaling for the United 
States next year in Athens.
    We have momentum and I am deeply concerned that these current 
problems will distract the USOC and the NGB's from our joint 
preparations for the major competitions that are just ahead. Further, I 
am concerned that the public controversy involving the USOC will spill 
over to the NGB's, thus deleteriously impacting the ability of many of 
them to attract corporate sponsorship dollars from entities that fail 
to distinguish between the USOC and its constituent members. In short, 
we need to put an end to this controversy as soon as possible, and as 
members of the Olympic Family the NGB's want to be part of that 
process. Let me briefly summarize what the NGB's consider to be areas 
of the USOC that require attention.
    Congress has given the USOC a wide variety of many responsibilities 
that range from promoting physical fitness to conducting sociological 
surveys to preparing elite athletes for international competition. 
Recently, in 1998, Congress added to this list by requiring the USOC to 
assume the new responsibilities for elite disabled activities. Congress 
passed this requirement onto the USOC and NGB's without providing the 
financial means to perform this new task. If the Congress is going to 
require the USOC and NGB's to undertake additional responsibilities, it 
is hoped that additional means will accompany these additional 
responsibilities.
    One of the most important responsibilities of the USOC is dispute 
resolution involving NGB's. The type of dispute in question might 
relate to a challenge by a competing organization to serve as the NGB 
of a given sport, claiming that the incumbent is not complying with the 
provisions of its own charter, or is not adequately serving the 
interests of its athletes.
    The USOC's process for resolving such disputes involves a seemingly 
endless series of bureaucratic inquiries, hearings, and study periods 
before a final decision is rendered, which can sometimes literally take 
years. Granted, many of these procedures are mandated in the Amateur 
Sports Act but the USOC, nevertheless, has to streamline its processes 
so that NGB's can focus on their primary mission--the preparation of 
its athletes for elite competition--rather than adherence to protracted 
bureaucratic procedures.
    Funding is a principal concern of all organizations, and the NGB's 
are no exception. Some of the larger NGB's, such as USA Tennis, are 
less dependent on USOC funding because their respective sports attract 
major corporate sponsors and through them, significant revenues. 
However many of the smaller sports have a very limited base of 
participant and spectator interest and, therefore, do not have access 
to the same level of sponsorship dollars as their more visible 
counterparts. These latter NGB's need more financial assistance from 
the USOC through creation of innovative marketing programs that 
identify new sources of revenue, or enable NGB's to partner with the 
USOC in a joint effort.
    On a practical level the USOC can offer more services to the NGB's, 
particularly in the administrative areas, that would permit a greater 
share of scarce NGB funds and limited NGB manpower to be devoted to 
athlete programs. What I am thinking of is assistance in areas such as 
payroll, accounting and bookkeeping, where individual NGB's may be 
employing people full time to attend to these matters that otherwise 
might be provided more economically, and possibly more professionally, 
through a central provider such as the USOC.
    Finally, the USOC has to be stabilized, and quickly. The events of 
the last three months and the resultant attention in the press have 
impacted not only the USOC itself, but has cascaded down and is dousing 
the entire Olympic Family--athletes, NGB's, and potential Games hosts 
such as New York City--in a bath of uncertainty and disfavor. It is 
affecting the ability to raise funds, to organize new programs, and 
even to attract volunteers to conduct activities dependent upon unpaid 
labor.
    As we work together to re-build USA's Olympic Committee, there are 
12 Critical Success Factors in my opinion that we need to focus on 
addressing. The first 3 deal directly with the major underlying reasons 
for many of the recent problems we have been facing:

1--Leadership is about people . . . in my opinion, the USOC Nominating 
        Committee got it right 3 years ago . . . had it not been for 
        the politics of the Board that overrode the Nominating 
        Committee's recommendation, most, if not all the problems we 
        have faced over the last 3 years would never had occurred . . . 
        we must strengthen our nominating process.

2--The roles between the CEO and the President are extremely murky and 
        turbid . . . even the best of leaders would have problems with 
        such excessive layers of role ambiguity between these 2 
        positions . . . we must clarify the roles between our top 
        volunteer and our top paid executive.

3--Our governance process is too complex and convoluted, and needs to 
        be streamlined . . . we must clarify and then codify the 
        overall operating structure . . .
    --the current Board of 120'ish has been really operating as a board 
            of stakeholders,
    --the current Executive Committee has been really operating as the 
            operating Board,
    --the officers group has been filling the role of an executive 
            committee.
    Beyond these 3, there are 9 additional Critical Success Factors 
that go beyond the problems related to the current crisis:

4--The USOC must be successful at revenue generation through 
        coordinated funding and bundled marketing opportunities . . . 
        NGB's need stable, adequate and predicable funding streams to 
        support our coaches and athletes.

5--Interrelated to #4 would be to mandate a 4-year Budgeting process in 
        regards to USOC funding to NGB's and Athletes.

6--During the last re-write of the Sport Act, the USOC and NGB's were 
        tasked with the additional task of developing elite 
        Paralympians, but no funding was provided for this additional 
        mandate.

7--We need to search for savings through the optimization of economies 
        of scales within NGB's, within the USOC . . . and between the 
        USOC and NGB's.

8--We must have a structure that promotes positive working 
        relationships between the AAC and NGBC . . . the working 
        relationships between the AAC and the NGBC are at an all time 
        high, but that has not always been that way.

9--It is critical to bring the Olympics back to the USA . . . in order 
        to be successful in winning the NYC 2012 bid, we must strongly 
        position the USOC within the IOC . . . we must also support NGB 
        leaders in attaining leadership positions within their 
        respective International Federations (IF's).

10--Throughout this restructuring process and beyond, the NGBC and the 
        AAC must have a meaningful and active role within the USOC . . 
        . the NGB's produce the athletes who in turn produce athletic 
        performance . . . we are the experts in the creation of 
        athletic success.

11--As we work together to restructure the USA's Olympic Committee, we 
        must be vigilant to the law of unintended consequences . . . we 
        must move expeditiously, but more importantly, we must get this 
        restructuring right.

12--Finally, we must focus on athletic performance, not politics.
    I make no apologies nor offer any excuses for some of the actions 
at the USOC that have precipitated this current crisis, but I believe 
it is now time to move on and get back to work. While remedial action 
must, and will be taken, the major focus now needs to return to the 
athletes, and how we can best serve them. So I say to this Committee 
that you are a valued member of the Olympic Family and we welcome your 
involvement and support at this critical time. I thank you for taking 
the time to convene this forum today which I understand to be one 
intended to find ways to make the United States Olympic Committee a 
better organization. I believe that this new partnership will yield 
positive results. I want to express our sincere appreciation for your 
interest and involvement.
    I am optimistic that working together, we can all make USA's 
Olympic Committee stronger and more effective. The sooner we get back 
to our mission, the better off we all will be . . . thank you!

    Mr. Stearns. Thank you.
    Mr. McCarthy, we welcome your opening statement.

               STATEMENT OF JAMES P. McCARTHY, JR.

    Mr. McCarthy. Thank you, Mr. Chairman, members of the 
subcommittee. My name is Jim McCarthy. I appreciate the 
opportunity to be here today to discuss whether the U.S. 
Olympic Committee's organizational structure impedes its 
mission.
    By way of background, for the last 23 years I have been 
actively involved as a volunteer after being a competitor in 
cross country skiing, with the United States Ski and Snowboard 
Association, the recognized NGB for skiing and snowboarding in 
the United States.
    As a member of USSA's board of directors, I had an 
opportunity, a number of years ago, to play a leadership role 
in reducing that organization's governance structure from three 
separate boards with over 100 members, to one board with 21 
members, while at the same time transitioning from an 
organization that was volunteer-governed and volunteer-operated 
to an organization that was volunteer-governed and staff-
operated.
    I am happy to say I think as part of that reorganization 
our athletes in skiing and snowboarding this year have had an 
absolute record-setting year.
    Johnny Spillane in Nordic Combined, won a gold medal, our 
country's first ever, at the World Nordic Championships. And 
Bode Miller led our Alpine Team to six medals at the World 
Alpine Championship.
    Since 1999, I have been USSA's designated representative to 
the USOC Board of Directors. And since December 2000, 1 of the 
5 national governing body members of the executive committee.
    The opinions that I share with you today are my own. They 
are based on my observations and they don't reflect the 
opinions of either the USOC or USSA.
    In answer to the committee's question of whether or not the 
organizational structure of the USOC interferes with or impedes 
attaining its mission, my answer is a resounding yes.
    Something is clearly wrong within the USOC. The real 
question is what is it? And I am going to give you my opinion 
in that regard.
    Beginning with the concept of all things to all people, 
which I think flows, unfortunately, from a combination of our 
mission statement and the 13 purpose clauses referred to in the 
Amateur Sports Act.
    The mission statement is very clear. It has lead the 
world's best National Olympic Committee. Help U.S. Olympic 
athletes achieve sustained competitive excellence while 
inspiring all Americans and preserving the Olympic ideal.
    Unfortunately, when we turn to the Act, which is 
incorporated into our mission statement, we find that we are as 
responsible for reducing obesity in the United States as we are 
winning Olympic medals.
    We are responsible for fitness and for the Olympics. It is 
a very long way from the couch to the podium. If we are going 
to do both of these things, we probably won't do either one of 
them very well.
    We need to focus our mission on what it is Congress and the 
United States public wants us to do. I think the second problem 
within the USOC is politics.
    With a mission statement broad enough to include the local 
running club, Weight Watchers and lead athletes, the membership 
of USOC board has grown.
    With approximately 123 board members, officer elections 
every 4 years, running for office has replaced running faster 
as a primary activity of the USOC board.
    Governance by lobbying replaced governing policies as 
political support was rewarded with supposed plum assignments 
or favorable treatment of your organization.
    In 1998, or excuse me, 1988, the Steinbrenner Report 
advised that it is more important to operate the USOC as an 
efficient organization, than as a perfectly representative form 
of democracy.
    Unfortunately, we have continued to function more 
politically than effectively. Possible solutions include a more 
limited commitment to representative government, selection 
rather than election of leaders, elimination of patronage based 
on political support, transparency and adherence to adopted 
organizational policies.
    My third issue is what does the USOC do? And Robert has 
just referred to the fact that the USOC is really an umbrella 
organization which serves athletes and NGBs.
    The NGBs, in fact, are the entities which supply the 
services to the athletes on a regular basis. There are 45 NGBs 
and in 2001, for comparison, if the USOC contributed 
approximately $40 million to athletes and NGBs, the NGBs on 
their own raised another $370 million.
    There are over 1,000 staff people that work for the 45 
NGBs. So the USOC is really the top of the pyramid. I think it 
is very important to define again what the USOC does and what 
it is expected to do in the near, near and long-term future.
    Finally, I believe that part of the process should be a 
serious look at the business models for NGBs that is created 
implicitly within the code.
    Right now the Act provides that NGBs will be autonomous in 
the governance of their sport. Now as indicated earlier, with 
45 NGBs, there are wide variations from sport to sport and 
capability resources and athletic requirements.
    I think that is another area that needs the attention of 
Congress as well as the USOC. Finally, the USOC is about noble 
goals.
    It provides inspiration in a cynical world and helps 
fulfill the dreams and ambitions of athletes. The staff and 
volunteers of USOC build podiums for athletes to stand on.
    They do not stand on them. By regaining our focus on 
athletes and athletics, the USOC can begin to regain and 
rebuild its reputation and credibility. Thank you.
    [The prepared statement of James P. McCarthy, Jr. follows:]

              Prepared Statement of James P. McCarthy, Jr.

    Mr. Chairman, Members of the Committee: My name is James P. 
McCarthy, Jr. I appreciate the opportunity to appear before you today 
to discuss whether the U.S. Olympic Committee's Organizational 
Structure impedes its mission.
    For the last 23 years, I have been actively involved as a volunteer 
and, for a brief period, a paid professional with the United States Ski 
and Snowboard Association (USSA) the USOC recognized National Governing 
Body (NGB) for skiing and snowboarding in the United States. During 
that period, I have served in virtually every volunteer position within 
USSA from local club organizer to Chairman of the Board including a 
stint as the association's interim CEO.
    As a member of USSA's Board of Directors, I had the opportunity to 
play a leadership role in reducing the organization's governance 
structure from three (3) separate boards with over 100 members to one 
board with twenty-one (21) members while at the same time transitioning 
from an organization wherein volunteers performed both governance and 
day-to-day operational functions to an organization governed by a 
volunteer board but operated by full time staff members.
    That reorganization took place in the mid 1990's and I am pleased 
report that since then USSA has virtually doubled the funds available 
for athletes and athletic programs allowing the Association to provide 
the consistent programs and support necessary for athletic success. The 
athletes' accomplishments at this year's World Championships speak for 
themselves: a first ever gold medal won by Johnny Spillane in Nordic 
Combined at the Nordic World Championships; a record setting six (6) 
medals including three (3) medals by Bode Miller at the World Alpine 
Championships; and consistently excellent performances at the World 
Free-Style and Snowboard Championships.
    Since 1999 I have been USSA's designated representative to the 
USOC's Board of Directors and, since December, 2002, one of the five 
(5) National Governing Body's Council's (NGBC) representatives on the 
USOC's Executive Committee.
    The opinions I share today with you are from based on my 
observations as a volunteer for almost a quarter of a century in sport 
organizations ranging from grass roots programs to the Olympics. The 
opinions are my own and do not represent position of either the USOC or 
USSA. I have no authority to speak for either organization.

              THE ENERGY AND COMMERCE COMMITTEE'S QUESTION

    After living through the last two (2) months of constant turmoil, 
controversy, and disappointment swirling around an organization as 
noble in purpose as the United States Olympic Committee, my quick 
response to this Committee's question about the USOC's organizational 
structure impeding its mission is a resounding: YES. Doesn't the mess 
made speak for itself? Something is clearly wrong. But what's the 
problem?
    How does an organization with an accumulation of accomplishments as 
impressive as the USOC's go in less than a year from helping athletes 
win 34 medals at the Salt Lake City Olympics to looking like a bad soap 
opera?

                       ALL THINGS TO ALL PEOPLE.

    I think the answer is ``things are never as simple as they seem'' 
and the USOC gives new meaning to that old saying--beginning with its 
Constitutional Mission Statement. While the first section seems 
straightforward and well focused, even expected:
        ``Lead the world's best National Olympic Committee: Help 
        U.S.Olympic athletes achieve sustained competitive excellence 
        while inspiring all Americans and preserving the Olympic 
        ideal.''
    The second section of the same statement incorporates by reference 
to the Ted Stevens Olympic and Amateur Sports Act (the Act) a wide 
ranging litany of ``purposes'' which give the USOC apparent 
responsibility for all aspects of physical fitness in the United 
States.
    Suddenly, the well focused mission of the USOC possibly measurable 
by medal counts at Olympic games has turned into a confusing set of 
goals which could just as well be measured by reductions in the 
national level of obesity as by counting Olympic medals. It's a very 
long way from the couch to the Olympic podium. To expect the USOC to 
fulfill all of these purposes, and do them all well, is unrealistic and 
confusing.
    The mission of the USOC needs to be clear and focused. The fuzzy, 
wide ranging mission possibilities inherent in the second part of the 
USOC's mission statement tempt the organization to try and be all 
things to all people. As a result, Board membership expands, precious 
resources are diverted to non-mission specific activities and the role 
and function of the USOC becomes muddled.

                                POLITICS

    With a mission statement broad enough to include the local running 
Club, Weight Watchers, and elite athletes, the membership of the USOC 
continued to grow. With approximately 123 board members and officer 
elections every four years, running for office replaced running faster 
as a primary activity for the USOC Board. Governance by lobbying 
replaced governing policies as political support was rewarded with 
supposed plum assignments or favorable treatment of your organization. 
Although the 1988 Steinbrenner Report advised,
        ``It . . . (is) . . . more important to operate the USOC as as 
        efficient organization than as a perfectly representative form 
        of government.''
the USOC has continued to function more politically than efficiently.
    Possible solutions include a more limited commitment to 
representative government, selection rather than election of leaders, 
elimination of patronage based on political support, transparency, and 
adherence to adopted organizational policies.

                         WHAT DOES THE USOC DO?

    The USOC can be described a number of different ways: travel 
agency; franchiser; regulator: joint marketing agency; trade 
association; and, provider of resources to athletes and NGBs. The 
reality is all these descriptions and more are accurate as the role and 
purpose of the USOC continues to evolve. What is important is for the 
USOC to begin defining what it does and what it expects to do in the 
near, mid, and long term future.

                       WHAT THE USOC DOES NOT DO.

    While most people are surprised to learn Olympic athletes are no 
longer amateurs as Avery Brundage used that term, they would probably 
be even more surprised to learn the USOC is not the primary provider of 
services to athletes. Except for the two weeks of the Olympics, the 45 
National Governing Bodies (NGBs) recognized by the USOC provide 
coaching service, athletic programs, competitions and support to 
aspiring athletes. As a result, the NGBs become the linchpin 
organizations in the delivery of services to aspiring athletes and the 
USOC is only as good as its member NGBs.
    USOC's NGB resource allocation policy has moved from a formula 
driven system to a performance based system customized for the needs 
and programs of each NGB. While this has been a positive step, the USOC 
needs to continue to improve and expand services to NGBs, and thereby 
to athletes. Ultimately, the USOC should develop models of ``best 
practices'' for athlete development, coaching, programming, and Olympic 
sport business management.
    As part of this process, the business model implicitly established 
for NGBs in the Act needs to be reviewed on a regular basis. All 
aspects of sport have changed dramatically since 1978 but the standards 
established in the Act have not changed materially since then.

                               CONCLUSION

    The USOC is about noble goals. It provides inspiration is a cynical 
world and helps fulfill the dreams and ambitions of athletes. The staff 
and volunteers of the USOC build the podiums for athletes to stand on, 
they don't stand on them. By regaining its focus on athletes and 
athletics, the USOC can begin to regain and rebuild its reputation and 
credibility. It is my sincere hope that some of the suggestions above 
will be of help in that process.

    Mr. Stearns. Thank you.
    Mr. Gardner, welcome.

                   STATEMENT OF RULON GARDNER

    Mr. Gardner. Thank you. It is a pleasure for an athlete to 
be here to represent my country and also the sport of 
wrestling.
    My name is Rulon Gardner. I am a Greco-Roman Wrestler and a 
member of the 2000 Olympic Wrestling Team. You may remember me 
for the Sidney Olympic Games: I am the dairy farm boy who 
defeated the undefeated Olympic Champion, three-time gold 
medalist, Aleksandr Karelin from Russia.
    My fellow athletes gave me the ultimate honor in asking me 
to carry the flag during the closing ceremonies in Sidney. 
Winning an Olympic gold medal was my lifelong dream and 
something that I could have not accomplished by myself.
    I give credit to my family, which has supported me my 
entire life. I give credit to my coaches, that helped prepare 
me and completely fulfill my dream at the Olympic games.
    But I also have to give credit to USA Wrestling, the 
National Governing Body of the sport of amateur wrestling in 
the United States, as well as the U.S. Olympic Committee.
    Without the Olympic family supporting me financially, as 
well with the training facilities and the international 
competition, I would have never been able to accomplish my 
dream of winning a gold medal.
    The great sport of wrestling has allowed me so many 
opportunities that the sport has let me challenge myself as an 
athlete and as a person.
    It has taught me to help set high goals and to work hard to 
achieve them. Wrestling is the reason that an overweight kid 
with a learning disability from Wyoming has developed the 
ability and the honor to come here and speak to you today.
    We are here to answer the one question, does the Olympic 
Committee organizational structure impede its mission? I do not 
pretend to be an expert on the organization, nor do I know the 
full history of the USOC and its administration.
    What I can tell you is how the athletes feel about the 
current controversy and how it affects us directly. I, as an 
Olympic athlete, remind you that the Olympic Committee was 
formed to help us win Olympic medals.
    It is not about professional staff members, volunteer board 
members or various committees. The Olympic committee is formed 
to help Rulon Gardner and his fellow athletes realize their 
Olympic dreams.
    This current controversy has been upsetting to the athletes 
because we truly care about the Olympic movement. However, the 
hubbub about the USOC has not affected my ability to train, nor 
has it taken the support away from me. Not yet.
    I still have access to the Olympic Training Center in 
Colorado Springs, where I live. My coaches are still running 
practices daily. I still have the opportunity to eat at the 
dining hall and lift in the weight room.
    None of the support checks from the U.S. Olympic Committee 
have bounced yet. Just a joke. I have been able to focus on 
wrestling and getting prepared for the 2004 Olympic Games in 
Athens, Greece.
    In fact, right during the craziest time last month, I had 
the honor to represent the U.S. in a tremendous international 
competition created by the USOC, called the Titan Games.
    You may have not heard about that because of the media that 
was focused on the Senate hearings and the board members and 
the staff members who were running all around the United 
States.
    Now this controversy will affect me directly as an Olympic, 
after Olympic sponsors stop their support. And if individual 
Olympic donors decide to find another cause.
    If we let this focus of the Olympic movement go away from 
the athlete to other things, then I will be hurt. We all have a 
job here to help the Olympic movement in the United States.
    It is my job to be a champion athlete, and it is your job 
to help me to get to the podium. If changing the way that the 
U.S. Olympic Committee does business helps me to be an Olympic 
medalist, then I support it completely.
    If finding new leadership to run our professional staff 
will help me provide more resources for the athlete, then I 
completely am on board.
    We expect our professional staff or volunteer leaders or 
elected officials to represent the U.S. Olympic movement with 
integrity.
    We expect their best efforts and the commitment to 
excellence. That is what we expect out of every athlete every 
time we compete to represent our Nation.
    To sum things up, I ask you all to remember the athlete in 
your work with the USOC. We do not need to tear down the 
Olympic Committee to the point to where the athletes are hurt.
    There is nothing wrong with positive change if we make the 
USOC better able to support the athletes. Thank you for caring 
about the U.S. Olympic movement and allowing an athlete to come 
speak to you today.
    [The prepared statement of Rulon Gardner follows:]

                  Prepared Statement of Rulon Gardner

    My name is Rulon Gardner. I am a Greco-Roman wrestler and a member 
of the 2000 U.S. Olympic Team. You may remember me from the Sydney 
Olympic Games. I am the Wyoming dairy farm boy who defeated the 
unbeaten three-time Olympic champion Alexander Kareline of Russia for 
the gold medal. My fellow Olympians gave me the ultimate honor of 
asking me to carry the U.S. flag in the Closing Ceremonies there.
    Winning the Olympic gold medal was my life-long dream, and 
something I could not have achieved by myself. I give credit to my 
family, which has supported me my entire life. I give credit to my 
coaches, who helped prepare me completely for the Olympic Games.
    But I also give credit to USA Wrestling, the national governing 
body for wrestling in the United States, as well as to the U.S. Olympic 
Committee. Without the Olympic family supporting me financially, as 
well as with training facilities and international competition, I would 
have NEVER been able to capture that gold medal for America.
    The great sport of wrestling has allowed me so many opportunities. 
The sport has let me challenge myself as an athlete and as a person. It 
has taught me to set high goals and to work hard to achieve them. 
Wrestling is the reason that an overweight kid with learning 
difficulties has developed to the point where he has been asked to 
speak to the U.S. House of Representatives today.
    We are here to answer the question: ``Does the U.S. Olympic 
Committee organizational structure impede its mission.''
    I do not pretend to be an expert on organization. Nor do I know the 
full history of the USOC and its administration. What I can tell you is 
how the Olympic athletes feel about the current controversy and how it 
affects us directly.
    I, as an Olympic athlete, remind you that the Olympic Committee was 
formed to help us to win Olympic medals. It is not about professional 
staff members, or volunteer Board members or various committees. The 
Olympic Committee was formed to help Rulon Gardner and my fellow 
Olympic athletes to realize their dreams.
    This current controversy has been upsetting to the athletes, 
because we truly care about the Olympic movement.
    However, the hubbub about the USOC has not affected my ability to 
train, nor has it taken away the support that I need. Not yet.
    I still have access to the U.S. Olympic Training Center in Colorado 
Springs. My coaches are still running daily practices. There is still 
food in the dining hall, and equipment in the weight room. None of my 
support checks from the U.S. Olympic Committee have bounced. I have 
been able focus on wrestling, and getting prepared for the next Olympic 
Games in Athens, Greece.
    In fact, right during the craziest times last month, I was honored 
to represent the USA in a tremendous international event created by the 
USOC called the Titan Games. You may not have heard about that, because 
the media was too busy chasing Senators and Board members and staff 
members all over the country.
    Now, this controversy will affect me directly if the Olympic 
sponsors stop their support, and if the individual Olympic donors 
decide to find another cause. If we let the focus of the Olympic 
movement go away from the athletes to other things, then I will be 
hurt.
    We all have a job here to help the Olympic movement in the United 
States. It is my job to be a champion athlete. It is your job to help 
me get to that podium.
    If changing the way that the U.S. Olympic Committee does business 
helps me to be an Olympic medalist, then I support it completely. If 
finding new leaders to run our professional staff will help provide 
more resources to the athletes, then I am completely on board.
    We expect our professional staff, our volunteer leaders and our 
elected officials to represent the Olympic movement with integrity. We 
expect their best effort and a commitment to excellence. That is what 
you expect out of every athlete every time we compete and represent our 
nation.
    So, to sum things up, I ask you all to remember the athlete in your 
work with the USOC. We do not need to tear down the Olympic Committee 
to the point that the athletes are hurt. There is nothing wrong with 
positive changes, if they make the USOC better able to support its 
athletes.
    Thank you for caring about the Olympics, and for allowing an 
athlete to give his opinion.

    Mr. Stearns. Well, Mr. Gardner, I would say also that we 
are also honored to have you here, too. And your humility is a 
tribute to your success. So I think it has been favorable to 
both of us.
    Let me start. Mr. Martin, I come to these questions with a 
sense, a pre-experience of the Olympics back when it was 
started.
    And I guess, is there any reason today that we should go 
back and return to the distinction between an amateur and a 
professional?
    I mean, as I recollect when it started, it was all amateur. 
And now you have these professional athletes. I mean, I will 
ask, this is something I can ask all of you, so maybe just a 
short answer.
    The first, is there any reason to consider returning to a 
distinction between amateur and professional in the Olympics?
    Mr. Martin. From my perspective here in the country, I 
would love to see nothing but what we traditionally consider 
amateur athletes----
    Mr. Stearns. So returning to the original idea of just 
seeing amateurs.
    Mr. Martin. Exactly. But that decision is made by each 
sport's international federation. And some sports adopt, 
anybody can come participate. And others have put limits on it.
    I believe, and probably Dr. Schiller could speak more 
appropriately on this subject than I can, but the International 
Olympic Committee has taken the position, we want the best 
athletes, regardless if they are amateurs or professionals, to 
participate in the Olympic Games.
    That is one reason why they are trying to get golf in, so 
you can get Tiger Woods involved in the Olympics.
    Mr. Stearns. I mean, it looks like it is moving toward, I 
mean just a gut feeling, if we are moving toward money here.
    Mr. Martin. Yes.
    Mr. Stearns. And we are not moving toward, the idea to 
allow amateurs to compete.
    Mr. Martin. Exactly.
    Mr. Stearns. And then at that point these amateurs can 
become professionals. I will just go right down. Rachel.
    Ms. Godino. It is an interesting and complicated problem. 
In my sport of figure skating, there is no amateur or 
professional any longer. They are eligible and ineligible to 
compete in certain events.
    And everyone makes money. And so it is a very complicated--
--
    Mr. Stearns. So professionals come back in and participate 
and then they go out?
    Ms. Godino. There is no distinction.
    Mr. Stearns. And so they make their money and they come 
back, and the amateurs who are competing don't make any money, 
but they are competing with the professionals.
    Ms. Godino. The World Figure Skating Championships, which 
is here in Washington, DC next week and you should all go, is, 
there are people, many of the competitors there make six 
figures from skating.
    And so, and there is no distinction between them--it is not 
true in every country. And it is not true for every single 
competitor.
    But some of them make a lot of money and some of them don't 
make any money. Very complicated problem.
    Mr. Stearns. You can't give a yes or no? The question is 
would, should we return to the amateur status for the Olympics, 
yes or no?
    Ms. Godino. I think you can have noble pursuit of sport 
even if you are making money doing it. And I think that is what 
you are really getting after with the amateurs.
    That there is something very noble about the pursuit of 
sport that is not complicated by dollars. But I don't think it 
necessarily has to be complicated by dollars.
    I think the Olympic ideals can be embodied by----
    Mr. Stearns. Do you think there is a compromise, a 
compromise can be implemented?
    Ms. Godino. I hope so.
    Mr. Stearns. You stay with the status quo?
    Ms. Godino. It is very different in different sports. There 
are 45 sports and most of them make no money. I mean most of 
the sports, as Senator Campbell said earlier, he looked at the 
list of sports and hadn't heard of a lot of them.
    There are a lot of sports, very unknown athletes that 
scrape by below the poverty line, even with the support that 
the get from NGBs and from the USOC.
    To train full-time they live under the poverty line. And so 
there is a huge disparity, and I am not sure it is an easy 
problem to solve.
    Mr. Stearns. Thank you. Dr. Schiller.
    Mr. Schiller. I think in additional to having the best 
athletes participate, that has always been the goal of the 
games themselves, that a lot of the changes were made to avoid 
a lot of the hypocrisy that had existed before.
    For example, in basketball, it had always been said it 
wasn't that professional were left out, it was the NBA players 
were left out.
    Because we know that the Eastern Bloc countries handled 
their sports very differently than others. And the eligibility 
rules were very, very conflicted, as they are in many, many 
sports today.
    I will say that it is still unclear. Sometimes there are 
age restrictions. Sometimes there are financial restrictions. 
And in fact, if you go back to the earliest days, from the 
DeCoubertin days, really that was more of an exclusive group of 
people that participated rather than an inclusive.
    And the role of amateur before really kept more people out 
than it kept in. I think it is too late, I think the horse is 
out of the barn.
    I think we are going to see more and more professionalism 
move its way in. And I don't think we can change it.
    Mr. Stearns. So we should, we cannot return to the idea in 
1978, where it is just amateur athletes?
    Mr. Schiller. I don't think we can, but at the same time it 
is clear that in this country the main source of athletes in 
the Olympic movement, as well as world competition, has been 
the school and college community.
    And we have to be very, very careful that those people do 
not get excluded because of the rules that have changed.
    Mr. Stearns. Mr. Marbut?
    Mr. Marbut. The old ideals of Avery Brundidge and Pierre de 
Coubertin I think would be great to strive for. But I don't 
know how you put the toothpaste back in the tube.
    And it really becomes an IOC and International Federation, 
as mentioned. I come from a small summer sport. We produce the 
smallest amount of Olympians.
    My Olympians get about $20,000 to $30,000 to support 
themselves. But they are having to work out 50 to 60 hours a 
week. I have a five sport, sport, if you will. And so they are 
going 50, 60 hours a week, so there is no way to have a full-
time job.
    If you couldn't financially give them support, they are not 
making money they are just using that money to pay their bills 
and barely make it.
    Sort of living on the poverty line, as Rachel says. So to 
get money is not always to say you are making money. Maybe you 
are using the money just to get by.
    Mr. Stearns. Okay. McCarthy?
    Mr. McCarthy. Well, I think we all might long for the days 
of Avery Brundidge and a simpler life. I think, in fact, we 
have got to deal with the situation as it is.
    And I think most Olympic athletes lined up really as poorly 
paid professionals. But in the traditional use of the word 
amateur, not amateurs, I don't see that as a particular 
problem, other than perhaps on the poorly paid side.
    Athletes now are continuing their careers long after 
college. We have people in their thirties who are still 
competing.
    In order to enable them to do that at a world class level, 
they have to train virtually full-time. It almost precludes 
making a living through any other source.
    Mr. Stearns. When the ``Dream Team'' comes and plays we 
have our NBA athletes compete, other countries have their 
amateur athletes or they have their professional athletes too?
    Mr. McCarthy. No, they have professionals also. It is all 
professional.
    Mr. Stearns. Well, one sport I know it is true in hockey 
and certainly I believe it's true in basketball. And, Mr. 
Gardner?
    Mr. Gardner. Well, back to the amateur aspect of it, do I 
think or would I like to see it? Yes, I would.
    Mr. Stearns. Just like to see amateur as opposed to 
professional coming in?
    Mr. Gardner. Correct. I would like to see amateur. Because 
you look at about 95 percent of the athletes, 95 percent of the 
athletes will never make a dime, probably, off of Olympic or 
the Olympic movement because about 95 percent of the athletes 
are out there every day committing 100 percent to training, 
they don't have the opportunity.
    Me, personally, I got a degree in teaching and wouldn't 
start teaching until I would be in my mid-thirties, compared to 
somebody who started teaching in their late or early twenties, 
and the pay scale would be completely messed up if I went in 
and tried to jump in there then.
    But I think one of the things that makes the Olympic 
movement so special, is I had an opportunity to meet Randy 
Johnson, professional baseball player.
    And I talked to him, and I said, Randy, you are such a hero 
of mine. And he says, no, you Olympic athletes are my heros 
because you dedicate your whole life, without very little 
financial opportunity to make any type of money.
    He says you are what I look up to as a person. And hearing 
that from an athlete of Randy Johnson, it really meant a lot to 
me.
    But then also, in the National Governing Body of Wrestling, 
we receive about $900 a month and that is our monthly income 
from USA Wrestling.
    And there are so many athletes out there who are basically 
below the poverty line who are out there every day trying to 
make nickels and dimes trying to financially support themselves 
just to try to fulfill their dream.
    And very, very few athletes get the opportunity to fulfill 
their dream.
    Mr. Stearns. I think what Randy Johnson says hits to sort 
of what I sense the idea, the idealized thought of a man or 
woman dedicating, in an amateur way, to become an Olympic 
winner.
    And all the sacrifice, emotional and financial and family 
and everything, is sort of an idealized dream. Yet, when you 
throw in all the professional athletes who are jumping in, who 
are making a million--I mean the NBA guys are making $5, $10, 
$20 million.
    And you throw all that together in the mix, it seems, as an 
outsider, that you are throwing money into this and you are 
losing some of the idealized thought process for this whole 
thing and why it started.
    And I am hearing from many, Mr. Martin, these people are 
not willing to put the toothpaste back--it is already out. And 
they are saying, basically, there is too much politics, there 
is too much money and we can't do it.
    So I think what you have to tell us, as Members of 
Congress, we have the ability to try and do it anyway. There 
might be too much politics for us. There might be too much 
money, I don't know.
    But it certainly, when we start this process, and this 
five-member task force comes back with their recommendations, 
the thought process should be what is best for America and what 
is the original intent of the Olympics.
    And is it now become a hodge podge of all these folks 
making $5 or $6 million coming back. So I am going to allow 
each of us to have 10 minutes and the gentleman from Michigan.
    Mr. Stupak. Thank you, Mr. Chairman. As I indicated 
earlier, in my opening statement, Northern Michigan University 
is the only Olympic education center. And we try to allow the 
athletes to get an education while they train.
    And you mentioned 50 or 60 hours of training or whatever it 
is for an Olympic athlete or one who is planning to be an 
Olympic athlete. They put in all their time and we don't do 
enough to help them with an education so they can get a job, 
because most of the sports don't pay any money.
    Up at Northern, our sports up there are like speed skating, 
short track, luge, boxing, greco-roman wrestling, biathlon. 
These aren't sports that you would get, if you are a promising 
athlete, come out of high school and get some scholarship to do 
it, so that is why the Olympic education center is so important 
to us.
    And I was frustrated when I said in my opening statement 
that Congress has a responsibility. Because when I came to 
Congress in 1993, we had authorized Olympic education 
scholarships, but we never funded them.
    So we fell down on the job. The last 4 years now we have 
been able to get some funding, thanks to a number of members 
who have helped us with that cause.
    But the other frustration I see at Northern Michigan 
University, you talk about the NGBs, yeah, NGBs you call them. 
Northern Michigan gets approximately $125,000 to run basically 
six sports.
    They also get money for operating costs. So they receive 
about $85,000 for athletic trainers. They get medical supplies 
and they get four 15-passenger vans. So the total they get from 
USOC, for support, is $210,000.
    You can't run a program like that. The Olympic scholarships 
are not for operating costs, they are for the athletes. At 
Northern we even have athletes who are high school students.
    We bring them into our communities, we put them into our 
high schools. These are the promising young. This is a farm 
team, if you will, for America's athletes at Northern Michigan 
and some of the other training centers we have around the 
country.
    And my frustration is we sit here, and I have been on this 
committee for some time. We had the Salt Lake scandal, we had 
the Atlanta scandal, and now we have these scandals.
    To see all this money involved, and then here is a center 
that is trying to provide education for our athletes to do 
things, and the money just seems to go elsewhere, and that is a 
little frustrating for us.
    And the only reason why Northern got probably $125,000 this 
year for operating costs, is probably because of you, Mr. 
Gardner, because you won a gold medal there and we have greco-
roman wrestling, one of the few places that have it.
    If you had not have won that medal, we probably would have 
gotten zip from USOC, and Northern would have to get the money 
out of the regular operating costs for the other educational 
programs.
    So my frustration, I guess the question I would have it 
what is the one thing each of you would recommend, what is the 
one or most important thing we need to do to fix the USOC?
    So if we just went down the line. Starting with you, Mr. 
Martin, what is the one thing you would recommend that we 
should do in Congress?
    Mr. Martin. Congressman Stupak, you should know I am a 
little biased. I am from the Upper Peninsula, to begin with. 
But the magic wand question you have just asked.
    If you had a magic wand, what would be the one thing you 
would fix? I would clearly focus and delineate the mission.
    Mr. Stupak. Ms. Godino?
    Ms. Godino. I wholeheartedly agree. That clarity of mission 
would go a long way toward helping us allocate resources 
efficiently and effectively.
    Mr. Stupak. Dr. Schiller?
    Mr. Schiller. Adding to Mr. Martin, I have an honorary 
degree from Northern Michigan and it is a wonderful opportunity 
for so many people.
    I would have to add it is really fully defining the role of 
what the committee should be doing and not be doing.
    Mr. Marbut. Stop the mission creep.
    Mr. McCarthy. Clearly defining the mission.
    Mr. Gardner. As an athlete, I appreciate first Northern 
Michigan and Ivan Ivanoff, the coach up there for the 
wrestling.
    But personally from an athlete's point of view, I wish that 
people would go down and walk through the Olympic training 
center and look at the wrestling and all the different sports 
and everything and realize what the Olympic committee is about.
    Who represent the athletes and to help each and every 
athlete reach their full potential and reach their dream to win 
a medal.
    And if we could bring it back on the athletes, that is what 
I wish we could do.
    Mr. Stupak. I agree and we just changed, up at Northern, we 
just moved our Olympic education center into the Superior Dome, 
as we call it up there, just to get it out of the, well it was 
old classrooms where they actually wrestled.
    And now we have got it actually into the Dome, so it is a 
little bit better now. But, Mr. Martin, you mentioned the USOC 
Board of Directors is well over 122, 123 people or whatever it 
is, and comprised or composed mostly of insiders.
    I mean who are the insiders and how do they ultimately 
become a board member.
    Mr. Martin. Congressman, by insiders we are referring to 
people who are a member of the broader Olympic family. They 
either represent a specific sport, such as myself, I was on the 
board for a term and a half as the board member representing 
the sport of sailing.
    But there are other board members representing the Boy 
Scouts and the Girl Scouts. All votes are not even. We have 
proportional voting.
    And the majority of the votes go to the Olympic sports. We 
have athletes on the board. They get on the board because they 
are an athlete, because they represent one of the 45 sports or 
they might represent education-based organizations.
    The NCAA has representation. The High School National 
Association has representation. The CYO, the Police Athletic 
League, et cetera, et cetera.
    So all the different constituencies in the country who are 
involved one way or another in amateur sports want a seat at 
the table and have been given at seat at the table.
    Mr. Stupak. Well, you asked Congress, and I think there was 
much agreement on the board, I am sorry, the panel here, and 
asked us to assist in refining and focusing the mission, your 
mission.
    And perhaps eliminating some of its diverse and unrelated 
responsibilities. What responsibilities would you like to see 
us eliminate so you can help it. I heard mission creep and it 
seems like we keep expanding it.
    So how do you, what would, to be efficient, to be 
effective, to keep control so we don't have these scandals, 
what should we start eliminating? We have got to start 
eliminating something here?
    Mr. Martin. Well, I think if you go back and look at the 
amendments to the Act in 1998, and some of the requirements in 
there that we directly would be involved in grass roots 
development, at the base level with kids.
    I think we should take a hard look at that area. I am 
certain fellow panelists can come up with other specific areas.
    But you can't be all things to all people. We have to focus 
our mission, preferably, I believe the American public wants us 
to, on winning medals in the Olympic and Pan Am Games. I think 
that is our fundamental mission.
    And you have to put everything else on the table for 
discussion.
    Mr. Stupak. Anyone else care to get on the wrong side here 
and say some things you would like to eliminate? I mean, 
seriously.
    Mr. Schiller. I think, focusing down a little bit, the 
members that Bill had mentioned that ranged from Jewish 
Community Centers, Church of Latter Day Saints to the armed 
forces. My hope would be that they would continue to work 
through the other member organizations, the National Governing 
Bodies.
    Because they become more of a feeder to them. And what 
really conflicted is we tried to serve too large a community at 
the USOC level.
    When really the sports bodies are the ones--in fact, in 
most of these cases there is dual representation. In a sport 
like boxing, for example, boxing has representatives from the 
armed services that compete in their national competitions, but 
yet you still have the armed services represented on the board 
in another role.
    So I think tuning that down, at the same time I think we 
have to recognize that in this country we do not have equal 
sport opportunities for every American.
    And there has to be some level of responsibility for that. 
That is where we are conflicted at the national level. We just 
don't have any focus on that.
    And I think that is something that Congress ought to be 
thinking about.
    Mr. Stupak. Yes, Mr. McCarthy?
    Mr. McCarthy. I think when you look at the produce clauses, 
the variety is incredible. From fitness standards to setting 
goals for amateur athletics in the United States.
    It is so broad that any organization that is loosely 
related to it can petition for membership in the USOC. And I 
think that is in part what has contributed to the growth of the 
board.
    But it also dilutes the mission of, in my judgment, 
supporting Olympic athletes at the very highest level. And the 
grass roots programs having to be taken care of by other 
entities.
    Mr. Stupak. Yes, sir.
    Mr. Marbut. If you look through the 13, it seems to me we 
need to get through seven, eight of those out, you know, 
quickly.
    I think the harder ones get into, you know, you want the 
red meat. The question is, what about Paralympians. That comes 
out of the IOC. That was added in 1998. Is that a role you want 
us to take?
    If so, I would argue, as we get the addition mission creep, 
we need to get additional revenue. I think there are two 
issues.
    One is of focus and one is of revenue. And if we can cut 
the 13 down to 3 or 4 or 1 or 2, would be ideal, and anything 
beyond the core, please give us some resources to help us do 
that.
    That would be, that is a personal argument on that because 
as we get additional items, that takes the revenues away from 
the core mission.
    Mr. Martin. Congressman, just a follow-on comment to Robert 
Marbut's comment about Paralympians. They are truly an 
integrated part of the Olympic movement.
    And in no way do we want to divulge them from it. And I 
didn't want his comments to reflect--they are a part of us. We 
are happy to have them.
    Obviously that creates resource challenges to fund them, 
but they are every bit as an Olympian as Rulon is.
    Mr. Stupak. Well, Congress really doesn't give any money to 
USOC, whether it is Paralympics or anything. We really don't, 
other than maybe a little bit of money we give on the 
scholarships, now.
    I tell you other countries give their sports, Sports 
Minister, I think you called what other countries have? Do they 
all, they all subsidize their athletics, do they not?
    Mr. Martin. That is exactly right. I can give you a very 
concrete example, going back probably 12 years ago. The U.S. 
Sailing Center for training our Olympic Sailors is down in the 
Miami area.
    And I would be down there training myself and I would see 
the Canadians role in, in brand new vans that said Canadian 
Sailing Team on the side with the sponsors and sponsored by the 
government.
    And our guys were living in the back of VW buses. These 
guys had hotel rooms, et cetera. I mean there is tremendous 
dichotomies across the world.
    Amateur sports and the Olympics, global, I think is far 
more important to other countries than, frankly, it is here in 
this country.
    Mr. Stupak. So the frustrations we see with operating costs 
at Northern Michigan, most other countries would just subsidize 
it right out?
    Mr. Martin. That is right.
    Mr. Stupak. Mr. Chairman, you know, we have asked a lot of 
questions on things that should be eliminated and things we can 
do to improve upon it.
    You know, the Senator testified earlier, Senator Campbell, 
that they have actually gone out to Colorado Springs, and maybe 
it is a trip that we should all take, especially those of us 
who have been around for the last 3 or 4 years on this issue, 
and try to look at the mission and define it and try to nail 
its focus.
    And maybe going out there would be somewhat of some help. 
Especially then we would get the chance to pick the minds of 
the staff and the athletes that are out there.
    And I will invite you to Northern Michigan, too.
    Mr. Stearns. I think, I say to my colleague that is a good 
suggestion, particularly, and then you have a little bit more 
time.
    You have the opportunity to see it and sometimes being in 
the environment gives you a lot of better feel than perhaps 
many of us going in and out of hearings.
    You can see we have a hearing on homeland security with 
Governor Ridge and Secretary Rumsfeld, as we speak, from 11 to 
12. A lot of members aren't here.
    Then the members are all there and everybody is focused on 
it. In Congress sometimes we have a problem with multi-tasking, 
which is a problem.
    I think what I am going to do is I am going to ask one 
general question, and then perhaps you would and we are going 
to close shop here.
    The general question I have is touching on what Mr. Stupak 
mentioned, is how do we downsize? That seems to me--I sense, 
among all of you that some way, through your written testimony, 
you want to protect the tenet of athlete representation on the 
USOC and the National Governing Board committees.
    Can the athlete's interests be protected with less than 20 
percent membership if the structure is downsized? What is the 
best way for adequate representation?
    I think, by asking you to think in terms of getting this 
toothpaste back in the tube. You know, so maybe I will just 
start left to right, if give me a quick answer here and then I 
will let my colleague speak.
    Mr. Martin. Anytime you deal with the turf challenge it is 
a very difficult issue. I think you focused on one of the key 
constituents that we have to make certain have adequate 
representation, the athletes themselves.
    I don't know what the magic number is myself, but I have 
found, in my tenure at the Olympics, that the athletes are 
young, they are exciting.
    If you heard earlier, there is a provision that any athlete 
who is involved on the board is held to participate in either 
the Olympic, Pan Am or International Games within the last 10 
years.
    So perhaps Rachel is getting too old to even participate 
anymore. I mean it is a shame, but you look at it, that is the 
requirement.
    That is one group that we clearly have to protect. But with 
age does come some experience. And whether it is 10 percent or 
20 percent, I think we can work that out internally.
    Certainly with Dr. Schiller and his independent commission, 
I think they can provide us the guidance. I don't think there 
is one magic number.
    Mr. Stearns. Okay, I don't necessarily need for each of you 
to answer, but, I mean, if you have a real strong feeling about 
this and can be more specific, that would be helpful, instead 
of general. Yes.
    Mr. Marbut. It seems to me if you get down to the size of 
15ish to 21, as a real operating board, I think it is 
important.
    I think you need to have the 20 percent rule, which is now 
becoming an international standard for the athletes, I think is 
very appropriate.
    I think the next group you add in is the NGBs, because the 
performance. But I don't think you need, we need to move to 
representative democracy rather than the direct democracy.
    You know, we need to have reps representing, rather than 
all 45 in such like that. And then I think you balance it off 
with the public sector members is the balance of the committee.
    And I think you would have the athletes protected. You 
would have the people who know how to create the performance 
protected, and then you have the outside that Harvey was 
talking about.
    Mr. Stearns. Okay, anyone else, just quickly. Yes, sir, Mr. 
McCarthy? Go ahead, we will take you first and then I will take 
Godino.
    Mr. McCarthy. Inherent in creating a 20 percent number is 
creating a constituency and then every other constituency looks 
at what is our number.
    On the other hand I think on balance having the athletes 
involved is a net positive. I think there are two, depending on 
what the mission is, there are two core constituencies, the 
athletes and the NGBs.
    Those are the inside constituencies. And I think as a 
matter of good governance, you want both of those groups 
involved so that the organization, at a governance level, knows 
what is going on internally.
    But also on the board I think we want to look at people who 
can bring us out that experience in marketing, television, 
finance, legal, what have you, that enriches the governance 
experience for the organization.
    Mr. Stearns. Okay.
    Ms. Godino. Thank you. Three thoughts, very quickly. The 20 
percent athlete and the 10-year rule, as it is known, that you 
have to have competed in the last 10 years, have both been 
tested and they have worked well.
    And as Robert mentioned, they have been adopted in other 
international federations and at the IOC as a general rule, a 
good rule of thumb.
    So it has been tested at, I think, it is a fair number. 
There needs to continue to be some forum for debate for both 
national governing bodies and for athletes.
    The AAC and NGB Council serve as that now. Those groups 
don't have to be on the Board, but they serve as a forum for 
debate for athletes to get together and talk about issues and 
come to some conclusions on things for National Governing 
Bodies to do so, and I think that is important.
    And related to that, my third point is that you can have 
representation for purposes of input and discussion and there 
is a different type of representation that might be necessary 
for decisionmaking.
    And that is an important distinction that we haven't 
necessarily made. Anybody who has to have input, gets to be 
part of the decisionmaking today.
    Mr. Stearns. Okay.
    Mr. Gardner. Just something real quick. INGB represents 
over 200,000 wrestlers who represents the three different 
styles, Greco-Roman, Freestyle and Women's wrestling at the 
Olympics.
    So we have 200,000 athletes who are represented by USA 
Wrestling and it comes in and has one voice at the board. And I 
think it, the NGBs have such a great responsibility and they 
handle it so well.
    If we could look into NGBs and figure out how we could 
utilize them more to bring them into effect too, because they 
make such a great impact to, you know, the U.S. Olympic 
Committee.
    Mr. Schiller. Mr. Chairman, may I just make--when I said 
something about the armed forces before, I want to make sure, 
that is one of the most important groups that we have had in 
our history.
    In fact, General Douglas MacArthur is former President of 
the U.S. Olympic Committee. General Patton was a participant 
and pentathlete, and some of the previous Executive Directors, 
Don Miller, and I am a 24-year veteran of the armed forces.
    So I do want to say that their contributions have been 
absolutely significant in our history. In 1920, in the Antwerp 
Games, we wouldn't have, we brought our athletes over there on 
troop ships from World War I.
    So they have been with us from the beginning.
    Mr. Stupak. Mr. Chairman, just sort of closing up here. You 
know, Senate has their five-person commission that is probably 
going to get back with the Senate.
    Mr. Martin has done a couple of things to get things going 
to do some review. I guess, you know, in the House, we should 
be working either with the Senate or here, because we do have 
oversight responsibility to make sure that these 
recommendations or suggestions and focus for the USOC is done 
and completed.
    I guess my question is or my concern is, how much time do 
we really have here? We don't want a shadow to be cast over 
future games. So how much time are we talking about doing these 
commissions, doing this internal work and getting it done?
    What kind of timeframe would you give us, Mr. Martin or 
someone? What kind of timeframe should we really try and get 
this thing done in? And I am not trying to say a timeframe will 
drive what we do, but give us some sense of where we have to 
go?
    I want to move past all these problems we have had from 
Salt Lake, Atlanta to USOC to move on with this whole thing. So 
what kind of timeframe would you look at?
    Mr. Martin. The Senate committee set June 30, for Dr. 
Schiller and his colleagues to report back their 
recommendations.
    And I think that is a very defining date. We are working 
toward completing our own internal work and turning it over to 
Dr. Schiller's committee prior to that time, so they have the 
benefit of our own internal review.
    And then it will be here for Washington, the House and the 
Senate to deal with.
    Mr. Stearns. Okay. I thank my colleague and we are going to 
adjourn. I just would conclude by saying that this is going to 
require, it appears, an attempt by us, on the House and Senate, 
to rewrite the 1978 bill.
    And Mr. Martin, if you and Dr. Schiller and others, could 
in anyway, initiate from your side what you would like to see 
in this bill, somehow, I think that would be helpful.
    And I know you have just taken over as Acting President, 
and you don't want to create a firestorm, but I think after 
this commission with, I think it is important that you have to 
step up and take some political capital here and to tell us 
what we should do is right.
    Because you know it better than us and we don't want to 
oversee something without your full participation. So 
regardless of what the commission says, I think you, Mr. 
Martin, should participate.
    I want to thank all of you for coming, I know how valuable 
your time is. And I appreciate your participation. The 
committee is adjourned.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned.]

</pre></body></html>
